<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 110-88]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-88
 
                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 169                                S. 783
 
                           S. 312                                S. 890
 
                           S. 580                                H.R. 497
 
                           S. 686                                H.R. 1047
 
                           S. 722
 
 

                                     

                               __________

                             APRIL 26, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources




                     U.S. GOVERNMENT PRINTING OFFICE

36-704 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                RICHARD BURR, North Carolina
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
          Thomas Lillie, Republican Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Allard, Hon. Wayne, U.S. Senator from Colorado...................     3
Borkow, Linda, Dobbs Ferry Historical Society, Dobbs Ferry, NY...    30
Brown, James P., Washington Office Director, St. Louis, MO.......    39
Burdick, Kim, National Chairman, National Washington-Rochambeau 
  Revolutionary War Route Association, Rockland, DE..............    26
Inouye, Hon. Daniel K., U.S. Senator from Hawaii.................     2
Kerner, Timothy, Mayor, Jean Lafitte, LA.........................    22
Levin, Hon. Carl, U.S. Senator from Michigan.....................     5
Lieberman, Hon. Joseph I., U.S. Senator from Connecticut.........     6
McCain, Hon. John, U.S. Senator from Arizona.....................     6
Reddel, Brigadier General Carl W., USAF, Retired, and Executive 
  Director, Dwight D. Eisenhower Memorial Commission.............    23
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     3
Wenk, Daniel N., Deputy Director for Operations, National Park 
  Service, Department of the Interior............................     7
Werner, Gary, Executive Director, Partnership for the National 
  Trail System, Madison, WI......................................    33

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    49

                              Appendix II

Additional material submitted for the record.....................    57


                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        THURSDAY, APRIL 26, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The Committee on Energy and Natural 
Resources, subcommittee on National Parks is now in order.
    The purpose of today's hearing is to receive testimony on 
several bills pending before the subcommittee which I will 
briefly list.
    S. 169 to amend the National Trail System Act to clarify 
Federal authority relating to land acquisition from willing 
sellers for the majority of the trails in the system.
    S. 312 and H.R. 497 to authorize a memorial to honor 
Brigadier General Francis Marion.
    S. 580 to amend the National Trail System Act to require 
the Secretary of the Interior to update the feasibility and 
suitability studies of four national historic trails.
    S. 686 to amend the National Trail System Act to designate 
the Washington-Rochambeau Revolutionary Route National Historic 
Trail.
    S. 722 to direct the Secretary of the Interior and the 
Secretary of Agriculture to jointly conduct a study of certain 
land adjacent to the Walnut Canyon National Monument in the 
State of Arizona.
    S. 783 to adjust the boundary of the Jean Lafitte National 
Historical Park and Preserve in the State of Louisiana. That's 
Jean Lafitte.
    S. 890 to provide for certain administrative and support 
services for the Dwight D. Eisenhower Memorial Commission.
    H.R. 1047 to authorize the Secretary of the Interior to 
conduct a study to determine the suitability and feasibility of 
designating the Soldiers' Memorial Military Museum located in 
St. Louis, Missouri, as a unit of the National Park System.
    Many of these bills have been considered by committees in 
previous years--two of the National Trail bills, in particular. 
One providing for authority to purchase lands from willing 
sellers and now that to authorize the study of new routes to 
existing trails have been considered and approved by the 
Senate, many times over the past several years.
    I hope this time we can, finally, move these bills 
successfully through the House and Senate and enacted into law.
    Because of the limited time available today, I'll reserve 
discussion on other bills until later in the hearing.
    [The prepared statement of Senator Inouye follows:]
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator From Hawaii
 s. 890, a bill to provide for certain administrative support services 
            for the dwight d. eisenhower memorial commission
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit testimony in strong support for a bill that I 
sponsored with Senators Stevens, Roberts, Reed, and Hagel. As Vice-
Chairman of the Dwight D. Eisenhower Memorial Commission, I know that 
this legislation is important to our continuing efforts to establish a 
national, permanent memorial to President Eisenhower.
    The Eisenhower Memorial Commission was created by Congress in 1999 
and fully appointed in 2001. It is completely bipartisan and consists 
of four Senators, four Representatives, and four private citizens. In 
September 2006, the Commission received final approval to locate the 
National Eisenhower Memorial across the street from the National Air 
and Space Museum at the intersection of Maryland and Independence 
Avenues, S.W.
    In the fifteen months between site selection and site approval, the 
Commission completed its due diligence for the site, submitting a Site 
Selection Report, an Environmental Assessment of the site, a Traffic 
Impact Study, and a Utilities Survey to the approval agencies. The 
National Capital Memorial Advisory Commission, the Commission of Fine 
Arts, and the National Capital Planning Commission unanimously approved 
the site selection. In May 2006, Congress agreed that President 
Eisenhower's legacy was of pre-eminent historical and lasting 
significance to the Nation, and unanimously passed a resolution 
approving location of the memorial in the prominent ``Area I.''
    President Eisenhower's significance continues to astonish those who 
discover it. Although born in the 19th century--before automobiles and 
airplanes--his profound legacy influences America and the world in the 
21st century. It was President Eisenhower who completed American 
nationhood by adding Hawaii and Alaska to the United States. It was 
President Eisenhower who created the National Aeronautics and Space 
Administration, the Federal Aviation Administration, and the Department 
of Health, Education, and Welfare. It was President Eisenhower who 
desegregated the District of Columbia and sent troops into Little Rock, 
Arkansas to support school integration. It was President Eisenhower who 
created the Interstate Highway System and took America into space.
    His is the story of a consummate American--a man who believed 
fundamentally and profoundly in freedom and democratic processes. The 
President Eisenhower story is also the story of a statesman of genius--
a man who tirelessly sought, and to a great extent achieved, 
international peace and security. His calm, confident leadership 
supported his country through a terrible war in Europe and a terrifying 
international aftermath. He was a shrewd and cunning strategist of Cold 
War politics. And yet he never lost his faith in humanity and in 
Americans. He once said ``There is nothing wrong with America that the 
faith, love of freedom, intelligence, and energy of her citizens cannot 
cure.''
    President Eisenhower's lifetime of selfless public service can 
inspire new generations of Americans. The National Eisenhower Memorial 
will ensure that his legacy is remembered and passed on to future 
generations. President Eisenhower as General, as President, and as 
Public Servant set a brilliant example of everything that is best about 
America. His distinguished legacy will serve as a stirring reminder 
that we--as a nation and as individuals--can rise to meet any 
challenge.
    The Eisenhower Memorial Commission has studied the Eisenhower 
Legacy and obtained site approval. Now, the Commission is preparing to 
embark on the Design Phase. The Commission needs revised administrative 
authorities in order to continue managing the process efficiently and 
responsibly. S. 890 provides the Commission with certain authorities 
given to temporary commissions in existence for up to three years. The 
Eisenhower Memorial Commission has similar needs, but will exist for a 
longer period of time. For example, S. 890 will enable the Commission 
to hire temporary employees instead of contract consultants, 
simplifying administration of staffing and covering the liability of 
its employees. S. 890 will also provide for the Executive Architect to 
represent the Commission on the panels that will select the design team 
for the memorial. The measure also restricts its staff or members from 
participating in the determination and selection of the design team.
    This legislation is necessary and timely, and will help to move the 
Commission smoothly into the next phase of memorialization. S. 890 will 
enable the Commission to continue working not only to ensure that the 
National Eisenhower Memorial is an inspiration to future generations, 
but also to ensure that the memorialization process is an example of 
responsible public work. I am pleased to join with my colleagues and 
enthusiastically support this legislation before the Committee today.
    Again, thank you for the opportunity to share my thoughts and 
support for this legislation. I urge your favorable consideration and 
support of the measure.

    Senator Akaka. At this time I'd like to recognize the 
ranking member and a good friend. We work so well together, 
Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman and good afternoon. 
Thank you for holding this hearing.
    I also want to thank the Deputy Director, Dan Wenk for 
being here and providing information on the bills under 
consideration.
    We have seven Senate bills and two House bills before us; 
among them is S. 169, a National Trails Willing Seller bill. 
I'd like to thank Senator Allard for making changes to the bill 
in response to our concerns in 108th Congress.
    This bill gives authority to the Federal Government to 
purchase land for an additional nine trails; one of those is 
the Continental Divide Trail which passes through the State of 
Wyoming.
    The bill specifies the land can only be acquired from 
willing sellers. The bill does not give the Federal Government 
any authority to regulate activities on lands within the view 
shed.
    This is important because the Federal land along the 
Continental Divide Trail has been managed for multiple use and 
multiple use needs continue.
    So, thank you for having this hearing. I look forward to 
hearing from the witnesses.
    Senator Akaka. Thank you. It's so good to be with you here 
today and before us we have such a good friend, Senator Allard, 
who will testify on S. 169, his bill authorizing willing seller 
authority for several national trails.
    Senator Allard, we're so happy you're here and welcome you 
to the committee. So, please proceed.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Thank you very much, Chairman Akaka and 
Senator Thomas for your comments. Obviously you have a full 
docket here before you and I so very much appreciate both you 
and Senator Thomas allowing me the opportunity to appear before 
you today, and for the committee's consideration the National 
Trails and System Willing Sellers Act.
    Willing Seller, willing buyer is very important in our part 
of the country. I think it is in your part of the country as 
well, Mr. Chairman. Many members of this committee are strong 
supporters for National Trails System.
    Trails like the Continental Divide Trail in Colorado, which 
some of you may have had an opportunity to travel on horseback, 
or to hike. I've had that opportunity. It's a glorious 
experience. I'd highly recommend it for every American.
    I commend all of you for your efforts as you work on public 
land management and strive to find the proper balance between 
public and private land ownership.
    The Willing Seller Act is not new to this committee, as you 
mentioned, starting in the 103d Congress and in every 
subsequent Congress some form of this legislation has been 
introduced.
    The 108th Congress, this committee approved similar 
legislation and the Senate unanimously approved the bill, 
unfortunately the House of Representatives failed to act on 
this bill before the session ended.
    I look forward to working with my colleagues and those who 
have put so much time into this effort as we work to finally 
pass this bill into law.
    On October 2, 1968, the National Trail System Act, which 
authorizes national trails system, became law. The intent of 
the act was to create a system of trails that provide 
recreation opportunities that promotes the preservation of 
access to the outdoor and historic resources of this nation.
    Historically trails have served as routes for the commerce 
and migration that expanded our nation, connected our 
geographically diverse populace.
    Today these same trails serve as a proud link to our past 
heritage and scenic beauty connecting the paths of our nation 
with the present generation of Americans.
    Congress authorized nine national scenic and historic 
trails between 1978-1986. However, unlike the other trails 
within the system, these trails did not have the authority to 
purchase land to complete the trails from willing sellers.
    In other words, even if a land owner wants to furnish land 
that would fill the gaps in trail ownership, he or she cannot 
do so. That's why I've introduced this legislation.
    The Willing Seller Act restores the ability of the Federal 
agencies to carry out their responsibility to protect 
nationally significant components of our nation's cultural, 
natural and recreational heritage.
    Completion of these trails is important to me in my State 
and I hope you'll support the Willing Seller bill.
    The authorization granted in S. 169 only authorizes land 
acquisition from willing sellers.
    With this willing seller authority, sections of these 
trails now located on roads, can be moved to overland trails or 
routes that will provide safer and better conditions for hikers 
and other trail users.
    Under the Willing Seller Act, no contract is valid unless 
the landowner agrees to sell and receives compensation for his 
land. In addition, the Federal Government specifically denies 
its power to condemn land for the trail.
    Congress enacted the National Trail System Act in 1968 to 
provide the means to provide the ever increasing outdoor 
recreation needs of an expanding population and in order to 
promote the preservation of, public access to, travel within, 
and enjoyment and appreciation of the open-air, outdoor areas 
and historic resources of this Nation.
    The Willing Sellers Act restores consistency to the 
National Trail System by providing the means to complete the 
Trail Systems Act. S. 169 provides the authority for Federal 
agencies to help protect the sites and segments critical to 
preserving the integrity and continuity of nearly half of the 
National Trails System.
    Mr. Chairman, it is my hope that we can reach an agreement 
on this bill so that we will be able to preserve private 
property rights while serving the intent of the National Trails 
System Act.
    Thank you for your time and consideration.
    Senator Akaka. Thank you very much, Senator Allard for your 
testimony and for your bill, S. 169 and we will certainly 
consider it as quickly as we can.
    Senator Allard. Thank you very much, Mr. Chairman. You're 
most gracious.
    Senator Akaka. Thank you very much.
    Senator Allard. Thank you.
    Senator Akaka. Before we proceed with our next witness, I'd 
like to include statements in the record from Senator Carl 
Levin of Michigan on S. 196 and Senator Joseph Lieberman from 
Connecticut on S. 686 and Senator John McCain, S. 722.
    [The prepared statements of Senator Levin, Senator 
Lieberman, and Senator McCain follow:]
   Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan
           s. 169--national trails system willing seller act
    I want to thank Chairman Akaka and Ranking Member Thomas for 
holding this hearing on important legislation relating to our country's 
historic trails system. After several years of working on S. 169, the 
National Trails System Willing Seller Act, we have been able to craft a 
bill with bipartisan support that would protect property rights, help 
enable the completion of nine national trails, protect natural and 
historic resources, and provide recreational opportunities. Legislation 
nearly identical to this bill was passed by the full Senate in the 
108th Congress. Unfortunately, the House did not act on this bill.
    S. 169 would amend the National Trails System Act (NTSA) to provide 
the federal government with the authority to acquire land, including 
easements, from willing sellers to complete nine national scenic and 
historic trails authorized under the Act. Without this bill, a 
landowner who wants to sell to the federal government is denied the 
right to do so.
    I am most familiar with the situation along the North Country 
Trail, a 4,600 mile long trail that traverses seven states (North 
Dakota, Minnesota, Wisconsin, Michigan, Ohio, Pennsylvania, and New 
York). The longest segment is in Michigan, with 1,150 miles. The North 
Country Trail is 54 percent completed and certified. However, the trail 
faces significant challenges, including development pressures and the 
need to cross long stretches of private lands. Without this 
legislation, the trail cannot be completed. Congress chose the route 
for this trail. Congress determined this would be a National Scenic 
Trail, which by nature must be a continuous, publicly accessible path, 
from New York to North Dakota. Yet, Congress has not yet given our 
agencies the acquisition authority needed to fully establish this 
Congressionally-designated trail across its Congressionally-determined 
route.
    As directed by the National Trails System Act, a strong public-
private partnership has developed to support the establishment of the 
North County Trail. Our partners are working in very limited ways 
through creative relationships with non-federal agencies to try to do 
what they can to meet the goals Congress set forth for this trail. 
Volunteers, private entities and state agencies are shouldering much of 
the responsibility of building and protecting this 4,600 mile long 
National Park Service trail. The Federal government, through the 
National Park Service, is playing a critical role, but land and 
easement acquisition cannot occur without the authority provided in 
this bill.
    Willing sellers, in many cases public-spirited citizens, should 
have the right to sell easements or even portions of their land to the 
Federal government should they choose to do so and if it is in the 
national interest. In addition to important trail linkages, with 
willing seller authority, sections of the current trail can be moved 
from roads where hikers and other trail users are unsafe.
    Federal agencies have been given land acquisition authority for 
sixteen of the twenty-five national scenic and historic trails, but 
have, for no logical reason, been denied authority to acquire land for 
the other nine trails. This bill begins to restore consistency to the 
National Trails System Act by enabling the federal agencies to acquire 
necessary land from willing sellers for an additional nine trails.
    In summary, the acquisition authority restored through S. 169 for 
these nine trails is sensible and reasonable given the direction set by 
the National Trails System Act, and is respectful of property rights. 
No condemnation authority is sought. I look forward to working with the 
Committee to again pass this important legislation.
                                 ______
                                 
     Prepared Statement of Hon. Joseph I. Lieberman, U.S. Senator 
                            From Connecticut
s. 686, a bill to amend the national trails system act to designate the 
 washington-rochambeau revolutionary route a national historical trail
    Thank you, Mr. Chairman. On October 28, 1781, Congress authorized 
the creation of a monument to commemorate the victory at the Battle of 
Yorktown and to recognize the French Alliance that was essential to our 
independence. Now, 225 years later, the Senate has the opportunity to 
remember and celebrate our history by designating the Washington-
Rochambeau Revolutionary Route a National Historic Trail. The trail 
would honor the miraculous campaign of two nations, two armies, and two 
great men. A campaign that culminated in the defeat of General 
Cornwallis' British troops at Yorktown and the conclusion of the 
American Revolutionary War.
    The 600-mile route winds through the States of Connecticut, 
Delaware, Maryland, Massachusetts, New Jersey, New York, Pennsylvania, 
Rhode Island, and Virginia, each of which made a unique contribution to 
the tale of the expedition. There have been many State, regional and 
local efforts to celebrate and commemorate this historic path over the 
years. I am particularly proud of the efforts of the State of 
Connecticut:

  <bullet> In 1957, the Connecticut General Assembly passed a bill to 
        erect markers designating the campsites occupied by the French 
        under General Rochambeau.
  <bullet> In 1995, the Connecticut Inter-Community Historic Resource 
        Committee further identified and classified campsites along the 
        route.
  <bullet> In 1998, the State legislature appropriated funds to 
        undertake the historical research needed as a first step in 
        having the entire route listed in the National Register.
  <bullet> In 1999, local historians and individuals from Connecticut 
        along with those from New Jersey and New York, formed the 
        Washington-Rochambeau Revolutionary Route Committee, which in 
        2003 resulted in the National Washington-Rochambeau 
        Revolutionary Route Association.

    I am privileged to support this legislation along with my 
colleagues, Senators Warner, Biden, Clinton, Dodd, Menendez, Reed, 
Specter, and Whitehouse. The bill ensures that this history, in all its 
rich detail, is not forgotten. Thank you, Mr. Chairman.
                                 ______
                                 
   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona
    Chairman Akaka and members of the Subcommittee, I greatly 
appreciate your consideration of S. 556, the Walnut Canyon Study Act of 
2005, as part of today's hearing. As you know, the bill would authorize 
the Secretary of the Interior and the Secretary of Agriculture to 
jointly conduct a special resources and land management study for 
certain lands in the area of Walnut Canyon National Monument.
    For several years, local communities adjacent to the Walnut Canyon 
National Monument have debated whether the federal land surrounding the 
monument would be best protected from future development under the 
management of the U.S. Forest Service or the National Park Service. 
After much debate and several public hearings, the Coconino County 
Board of Supervisors and the Flagstaff City Council agreed to and 
passed a joint resolution asking Congress for a special Federal study 
to determine the best management options for the land surrounding 
Walnut Canyon. This bill would fulfill the request of the City and 
County and help extinguish a potential conflict that threatens the 
public enjoyment of both Walnut Canyon and the surrounding Coconino 
National Forest.
    As you may know, the Senate Subcommittee on National Parks held a 
hearing on a similar bill I introduced during the 109th Congress, S. 
566. Unfortunately S. 566 was not passed by the full committee before 
final adjournment of the last Congress. The bill before the 
Subcommittee today is the result of collaboration and fine tuning 
between my office, other members of the Arizona delegation, the City of 
Flagstaff, and the Coconino County Board of Supervisors. The 
improvements made to the original bill, S. 556, which now appear in S. 
722, do not alter the spirit or overall goal of the S. 566, and do not 
break with the original request by the City and the County.
    I'm aware that some local interests in the Flagstaff area, like the 
Friends of Walnut Canyon, are now voicing concerns that S. 722 doesn't 
go far enough in assessing the level of protection that may be needed 
for Native American cultural sites residing just outside of the 
Monument. I don't believe they understand that the bill as drafted 
actually does what they are advocating. Specifically, Sec. 4(b) of the 
bill requires the study to ``evaluate the significance of the resources 
and public values of the study area as the resources and public values 
pertain to the management objectives of the Forest Service and the 
National Park Service.'' This language ensures that the Park's mission 
of cultural and natural resource protection will be factored in the 
study while simultaneously acknowledging the Forest Service's multiple 
use responsibility to its users. Furthermore, Sec. 3 of the bill 
defines the terms ``public use'' and ``public value,'' in the same way 
that ``public values'' and ``public uses'' were defined in the City-
County joint resolution (County Resolution 2002-65, dated 12/17/02), 
and specifically references ``group uses,'' ``prehistoric sites,'' and 
``historic sites.'' While language in Sec. 4(b) requires the 
Secretaries to assess the feasibility of designating the study area as 
a National Recreation Area, the same section also requires the study to 
assess ``a range of options for managing and conserving resources . . . 
including studying the feasibility of a boundary adjustment to the 
Monument'' and ``any other designation or management option that will 
accomplish both the protection of resources and the maintenance of 
public use and access for the study area.'' I believe, as does Coconino 
County and the City of Flagstaff, that such provisions address the 
concerns raised by groups like the Friends of Walnut Canyon.
    Mr. Chairman, this legislation would provide a mechanism for 
determining the preferable management options for one of Arizona's high 
use scenic areas and help to protect the natural and cultural resources 
of this incredibly beautiful monument. By carrying out this study, we 
can more accurately resolve any questions for future potential 
conflicts dealing with urban encroachment and resource protection for 
Walnut Canyon.
    Again, I thank the Chairman and the Subcommittee for their 
consideration of this legislation.

    Senator Akaka. We also have received several written 
statements which will be included in the record.
    Dan Wenk, Associate Director of the National Park Service, 
is here before us to testify on behalf of the Department of 
Interior.
    Mr. Wenk, I want to welcome you to the subcommittee. Please 
feel free to summarize your testimony. Your complete statement 
will be included in the record. Will you please proceed with 
your comments on all of the bills? Then we'll turn to your 
questions.

 STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR FOR OPERATIONS, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before this subcommittee to present the 
views of the Department of the Interior on the eight bills on 
today's agenda.
    I would like to submit my entire statement for the record 
and summarize the Department's positions on these bills.
    Senator Akaka. We'll include them.
    Mr. Wenk. The first bill, S. 169 amends the National Trail 
System Act to clarify Federal authority relating to land 
acquisition from willing sellers.
    The Department supports S. 169, which is similar to 
legislation the Department supported during the 108th Congress. 
It would bring the land acquisition authority on these nine 
trails in line with those in the majority of the national 
scenic and national historic trails in the National Trail 
System.
    It would also allow the Federal Government to assist in the 
protection of these trails through donation, easement and as a 
last resort, fee simple acquisition from land owners actively 
interested in selling land for trail protection.
    The second bill, S. 312 and H.R. 497, would authorize the 
Marion Park Project. A committee of the Palmetto Conservation 
Foundation to establish a commemorative work on Federal land in 
the District of Columbia and its environs to honor Brigadier 
General Francis Marion.
    The Department supports S. 312 and H.R. 497 and we suggest 
that a technical correction be made to S. 312 to change the 
name of the entity to establish the commemorative work to make 
it consistent with the House passed companion bill H.R. 497.
    The third bill, S. 580, amends the National Trail System 
Act to update the feasibility and suitability of studies of the 
Oregon, Pony Express, California, and Mormon Pioneer National 
Historic Trails to examine additional routes and cutoffs not 
included in the initial studies of all four trails.
    The Department supports S. 580, which is similar to 
legislation the Department supported during the 108th Congress, 
but believes that funding requested should be directed first 
toward completing previously authorized studies.
    The fourth bill, S. 686 would designate the 600 mile 
Washington-Rochambeau Revolutionary Route as a National 
Historic Trail. The trail would stretch from Newport, Rhode 
Island down to Yorktown, Virginia across nine States and the 
District of Columbia.
    The study's report on the trail continues under public 
review until May 4, 2007, but has preliminarily concluded that 
the trail meets the criteria for a designation as a National 
Historic Trail.
    The Department supports enactment of this bill.
    The fifth bill, S. 722, would direct the Secretaries of the 
Interior and Agriculture to conduct a study of approximately 
31,000 acres surrounding Walnut Canyon National Monument. The 
bill would direct the Secretaries to utilize a third-party 
consultant to prepare a study which would evaluate a range of 
options to manage Federal and State lands adjacent to Walnut 
Canyon in order to protect resources and maintain public use in 
access to this area of Arizona.
    A report that includes the findings, conclusions and 
recommendations for future management of the study area would 
be transmitted by the Secretaries to Congress no later than 18 
months after funds are made available.
    The administration does not object to the enactment of S. 
722, but believes that funding should be directed first toward 
completing and implementing ongoing studies.
    The sixth bill, S. 783 would expand the boundary of Jean 
Lafitte National Historical Park and Preserve by approximately 
8,900 acres. This bill would add approximately 3,084 acres of 
Federal land adjacent to the Barataria unit of the park.
    It would also add the 5,000 acre Fleming Plantation which 
is located across the Bayou Barataria from the Barataria unit, 
less than one-quarter mile away from the existing unit 
boundary.
    The Department supports the bill, but would like to work 
with the subcommittee to make the bill consistent with boundary 
expansion bills for Jean Lafitte that have passed the Senate 
during previous Congresses.
    The seventh bill, S. 890, would provide for certain 
administrative and support services for Dwight D. Eisenhower 
Memorial Commission. The Department has no position on S. 890 
as it involves providing administrative and support services 
for an established Congressional Commission by the General 
Services Administration.
    However, we support the work of the Commission and are 
willing to assist them throughout the process of establishing 
an appropriate and permanent memorial to honor Dwight D. 
Eisenhower, the 34th President of the United States.
    And the eighth bill, H.R. 1047, would authorize the 
Secretary of Interior to conduct a study to determine the 
suitability and feasibility of designating the Soldiers' 
Memorial Military Museum located in St. Louis, Missouri as a 
unit of the National Park System.
    The Department opposes this bill. The memorial is currently 
listed as eligible for the National Register of Historic 
Places, but at this time has not been nominated. In a time of 
tight budgets and refocusing on the core mission of the 
National Park Service, we believe that funding should be 
directed toward completing previously authorized studies.
    Mr. Chairman, that concludes my statement. I'd be happy to 
answer any questions you or other committee members may have.
    [The prepared statement of Mr. Wenk follows:]
 Prepared Statement of Daniel N. Wenk, Deputy Director for Operations, 
           National Park Service, Department of the Interior
                                 s. 169
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 169, the National Trails System Willing Seller Act. S. 169 
would amend the National Trails System Act to provide land acquisition 
authority from willing sellers, but specifically exclude the use of 
condemnation, for nine national scenic and national historic trails 
established between 1978 and 1986.
    The Department supports S. 169, which is similar to legislation the 
Department supported during the 108th Congress. The Department supports 
the 17 national historic trails, 8 scenic trails, and 900 national 
recreation trails that make up the approximately 60,000 miles of trails 
in the National Trails System. National trails are a popular way of 
linking together thousands of significant historic sites and drawing 
attention to local cultural and natural resources. This network of 
trails has provided millions of visitors across the country with 
rewarding and enjoyable outdoor experiences. Thousands of volunteers 
each year work tirelessly to plan promote, build, maintain and 
otherwise care for these trails.
    Trails can provide an important opportunity to promote citizen 
involvement and bring together communities. The Department of the 
Interior has developed a set of principles that will serve as an 
important guide for all land transactions conducted by the Department. 
The principles include:

          1. Integrity.--Transactions shall meet the highest ethical 
        standards and comply with all applicable laws, rules, 
        regulations and codes of professional conduct.
          2. Good Faith.--Transactions shall occur in good faith and 
        only with willing parties.
          3. Transparency.--Transactions shall be pursued transparently 
        with appropriate opportunities for public participation.
          4. Mission.--Transactions shall promote fulfillment of 
        Departmental and Bureau missions.
          5. Citizen Stewardship.--Transactions shall be consistent 
        with the promotion of private stewardship.
          6. Innovation.--Transactions shall employ easements, 
        donations and other alternatives to fee title when appropriate.
          7. Congressional Direction.--The Department shall provide 
        technical assistance and policy recommendations to Congress, 
        when requested, and in a manner consistent with these 
        principles.

    Within this framework, the Department recognizes the positive role 
the Federal government could play in the protection of these trails 
with the authority provided under S. 169. For example, current 
provisions of the National Trails System Act prohibit the expenditure 
of funds to acquire lands and do not provide clear authority to accept 
donated lands or easements. The current prohibition on using funds to 
acquire lands also applies to the acquisition of interest in lands, and 
thus, the Federal government cannot purchase easements from interested 
landowners.
    It is paramount that we work closely with private landowners, local 
communities, private volunteer groups, and State and local governments 
to discover creative solutions for trail protection that may not result 
in fee simple acquisition. To ensure that such alternative solutions 
are fully explored, we have provided a proposed amendment at the end of 
this testimony.
    In addition to the considerations in our proposed amendment, we 
understand that several additional steps would have to occur before 
purchase of a trail segment from a willing seller occurs including: 
developing a land protection plan; undergoing a public review process; 
and requesting, obtaining and prioritizing appropriate funding.
    The National Trails System Act was initially developed by Congress 
principally to offer Federal assistance and support for protecting the 
land base of the Appalachian National Scenic Trail. When the act was 
passed in 1968, both the previously existing Appalachian and Pacific 
Crest National Scenic Trails were established as the two initial 
components of the National Trails System and 14 more trails were 
proposed for study as potential additions to the National Trail System. 
The core authorities of the act addressed how to establish nationally 
significant trails.
    In 1978, the national historic trails category was added to the 
National Trails System accompanied by authorization of four historic 
trails (Oregon, Mormon Pioneer, Lewis and Clark, and Iditarod). 
National historic trails were seen as primarily commemorative with only 
limited need for acquisition authority. Amendments added to the 
National Trails System Act prohibited expenditures by Federal agencies 
to acquire lands or interests in lands for these trails outside of 
existing Federal areas. Amendments added in 1980 and 1983 made this 
prohibition applicable to the Continental Divide National Scenic Trail, 
as well as to the North Country, Ice Age, and Potomac Heritage National 
Scenic Trails. This means the generic land acquisition authorities 
provided in Section 7 of the National Trails System Act cannot be used 
on any of these scenic and historic trails.
    Since 1983, most of the trails established under the National 
Trails System Act have had language similar to the following sentence: 
``No lands or interests therein outside the exterior boundaries of any 
federally administered area may be acquired by the United States for 
the Pony Express National Historic Trail except with the consent of the 
owner thereof.'' This ``willing seller authority'' falls somewhere 
between the full land acquisition authority used to protect the 
Appalachian and Pacific Crest National Scenic Trails and the ban on 
Federal funding for acquiring segments that fall outside of national 
parks, forests and wildlife refuges on the nine trails included in this 
bill.
    From its beginning, the National Trails System was premised on the 
establishment, operation, and maintenance of national trails as 
collaborative partnership efforts. For land protection, specifically, 
state governments and nonprofit partners are encouraged to protect what 
they can of the national trails, with the Federal government embarking 
on land acquisition only as a last resort. For example, in Wisconsin, 
an arrangement was set up for the Ice Age National Scenic Trail under 
which the State of Wisconsin took the lead in acquiring trail lands, 
with support from the Ice Age Park and Trail Foundation and 
coordination by the National Park Service. Further, trail nonprofit 
partners have been encouraged to develop land trusts to acquire 
critical lands. This bill is supported by a broad coalition of trail 
organizations across America.
    Along historic trails, the major means of protecting the trail 
corridor has been through a voluntary certification process. These 
renewable agreements between the Federal trail agency and the landowner 
have enabled trail sites and segments to remain in private ownership 
and still receive Federal government recognition as part of a national 
historic trail. The advantages to certification are that it is less 
costly for the government and the land remains in private (or State) 
ownership, continuing to generate taxes.
    It would be impossible to estimate funding requirements associated 
with this bill at this time, as the number of willing sellers is 
unknown, whether donation, easements, or fee simple acquisition would 
be employed is unknown, and the cost of the land segments for each 
trail would vary due to geographic location and the long time span over 
which the acquisition work would take place. The Administration will 
identify the costs for each trail on a case-by-case basis.
    By bringing the land acquisition authority on these nine trails in 
line with those in the majority of national scenic and national 
historic trails in the National Trail System, S. 169 would allow the 
Federal government to assist in the protection of these trails, through 
donation, easements, and, as a last resort, fee simple acquisition from 
landowners actively interested in selling land for trail protection.
    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or your committee may have.
                      proposed amendment to s. 169
    On p. 2, line 9, after ``thereof.'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 2, line 19, after ``thereof.'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 3, line 3, after ``thereof.'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 3, line 13, after ``thereof'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 3, line 23, after ``thereof'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 4, line 9, after ``thereof'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 4, line 16, after ``thereof'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 4, line 23, after ``thereof'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
    On p. 5, line 5, after ``thereof'' insert ``The Secretary shall 
give priority to acquiring lands by donation and acquiring easements or 
other alternatives to fee title when appropriate.''
                          s. 312 and h.r. 497
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 312 and H.R. 497, bills to authorize the Marion 
Park Project, a committee of the Palmetto Conservation Foundation, to 
establish a commemorative work on Federal land in the District of 
Columbia and its environs to honor Brigadier General Francis Marion.
    The Department of the Interior supports enactment of S. 312 and 
H.R. 497, and we suggest that a technical correction be made to S. 312 
to make it consistent with the House-passed companion bill, H.R. 497. 
The Senate bill references ``the Marion Park Project and Committee of 
the Palmetto Conservation Foundation'' as the entities authorized to 
establish the commemorative work. We suggest an amendment to change 
this reference to ``the Marion Park Project, a committee of the 
Palmetto Conservation Foundation.'' The National Capital Memorial 
Advisory Commission considered proposals to establish this memorial on 
June 27, 2006, and unanimously endorsed the establishment of a memorial 
in the Nation's Capital to Brigadier General Francis Marion.
    S. 312 and H.R. 497 would establish a commemorative work on Federal 
land to honor Brigadier General Francis Marion in accordance with the 
Commemorative Works Act. They would prohibit Federal funds from being 
used to pay any expense of the establishment of the commemorative work, 
requiring the Marion Park Project and Committee of the Palmetto 
Conservation Foundation to be solely responsible for funding and 
establishment. After payment of the expenses for establishing the 
commemorative work, which includes the offset for the maintenance and 
preservation of the memorial, or upon expiration of the authority for 
the commemorative work, S. 312 and H.R. 497 would direct all remaining 
funds to be transmitted to the Secretary of the Treasury for deposit in 
an account provided for this purpose. S. 312 also would direct any 
funds remaining for the commemorative work upon expiration of 
legislative authority to be transferred to the same account.
    Memorials built in the District of Columbia and its environs on 
lands managed by the National Park Service or the General Services 
Administration are established in accordance with the Commemorative 
Works Act. If a memorial is proposed on lands managed by the National 
Park Service, the Commemorative Works Act requires that within 7 years 
from the date of enactment, the sponsor obtain approvals for its 
location and design from the Secretary of the Interior, the National 
Capital Planning Commission, and the Commission of Fine Arts and 
complete its fundraising for the memorial. The National Park Service 
issues a permit to begin construction of the memorial as soon as 
construction documents are certified and evidence of sufficient funds 
to complete the memorial have been provided by the sponsor. The 
Commemorative Works Act also requires an additional 10 percent of the 
construction cost to be provided to defray future unbudgeted 
maintenance costs. Since 1986, memorials that range from large-scale 
memorials to memorial plaques have been established under the terms of 
the Commemorative Works Act. These have fully met the requirements to 
obtain a permit to begin construction.
    Although S. 312 and H.R. 497 do not designate a specific site for 
the memorial, they recognize that U.S. Reservation 18 has been named 
Marion Park since 1878 but lacks a formal commemoration to Brigadier 
General Francis Marion. Marion Park is located between 4th and 6th 
Streets, S.E. at the intersection of E Street and South Carolina 
Avenue, S.E. in Washington, D.C. This site is located in Area II under 
the Commemorative Works Act, which requires that the subject be of 
``lasting historical significance to the American people.'' While 
Marion Park is the logical place to locate this memorial, we would like 
the opportunity to study alternative locations with potential nexus to 
Brigadier General Marion under the provisions of the Commemorative 
Works Act. Site selection is an important part of the process 
established by the Commemorative Works Act. Thus, recognizing Marion 
Park in the findings of the bill, rather than designating it as the 
site for the commemorative work, is appropriate.
    Brigadier General Francis Marion commanded the Williamsburg Militia 
Revolutionary force in South Carolina and was instrumental in delaying 
the advance of British forces by leading his troops in disrupting 
supply lines. He is credited for inventing and applying innovative 
battle tactics in this effort, keys to an ultimate victory for the 
American Colonies in the Revolutionary War. Additionally, Brigadier 
General Marion's troops are believed to have been the first racially 
integrated force fighting for the United States. In our judgment he is 
certainly worthy of being commemorated in our Nation's Capital.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other subcommittee members might have.
                                 s. 580
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 580, a bill to amend the 
National Trails System Act to update the feasibility and suitability 
studies of the Oregon, Pony Express, California, and Mormon Pioneer 
National Historic Trails (NHTs).
    The Department supports S. 580, which is similar to legislation the 
Department supported during the 108th Congress. While the Department 
supports the authorization of these studies, we also believe that any 
funding requested should be directed first toward completing previously 
authorized studies.
    S. 580 would update the feasibility and suitability studies and 
make recommendations through the examination of additional routes and 
cutoffs not included in the initial studies of all four trails. The 
Secretary of the Interior would determine if any of these routes and 
cutoffs are eligible as additions to the four NHTs at the completion of 
these studies and report back to the Congress on those deemed 
appropriate for addition to the trails.
    The feasibility study for the Oregon NHT was completed in 1977, the 
study for the Mormon Pioneer NHT in 1978, and the one for the 
California and Pony Express NHTs in 1987. Since those studies have been 
completed, additional routes and cutoffs were identified that may 
qualify as segments of these trails. The National Trails System Act 
does not provide the authority to evaluate and add additional routes 
and cutoffs without certain legislative amendments.
    The Oregon NHT, authorized in 1978, commemorates the ``primary 
route'' used by emigrants beginning in 1841 between Independence, 
Missouri and Oregon City, Oregon. Traveled by thousands, the trail 
contained routes and cutoffs used through the years. These secondary 
routes had substantial emigrant traffic over several decades that 
demonstrate historical significance and may be worthy of examination in 
an updated study.
    The authorization of the Mormon NHT in 1978 commemorates the 
journey of the pioneer party in 1846-1847 from Nauvoo, Illinois, to 
Salt Lake City, Utah. As with the Oregon NHT, emigrant traffic occurred 
on many additional routes during the Mormon migration westward. As with 
the other trails, these routes frequently coincide with one another. 
Preliminary data indicate significant historic traffic along many of 
these routes.
    Authorized in 1992, the California NHT commemorates the gold rush 
to the Sierra Nevada. Dozens of routes and cutoffs were traveled by 
thousands of pioneers, but no single route dominated.
    The Pony Express NHT was included in the same authorizing 
legislation as the California NHT. It commemorates the efforts of this 
nation struggling to establish a system of communication across the 
Trans-Missouri west. The trail primarily follows routes beginning at 
St. Joseph, Missouri and ending in San Francisco, California. The firm 
of Russell, Majors, and Waddell, a Missouri freighting company, 
established and operated the Pony Express for one and a half years 
before it fell on hard times and ceased to exist. A short section of 
the trail, from the Missouri River into Kansas, may be worthy of study 
and is included in S. 580.
    All four trails overlap one another in many locations and several 
of the routes and cutoffs proposed for study in S. 580 are already part 
of designated trails. These shared routes are prominent where the 
trails depart from various points along the Missouri and Mississippi 
Rivers, particularly in the Kansas City, St. Joseph, Nebraska City, 
Council Bluffs and Omaha areas. Several other shared locations include 
routes in western Nebraska, Kansas, Colorado, Wyoming, Idaho, Nevada 
and California.
    The National Trail System Act requires that studies of lands 
proposed for trails be made in consultation with Federal, State, and 
local agencies, as well as nonprofit trail organizations. Between 1994 
and 1999, the National Park Service--in collaboration with the Bureau 
of Land Management, USDA Forest Service, trail advocacy groups and 
others--completed the Comprehensive Management and Use Plan and 
Environmental Impact Statement (1999) for the four trails. This was the 
initial plan for the recently established California and Pony Express 
NHTs as well as revised plans for the earlier established Oregon and 
Mormon Pioneer NHTs. S. 580 would allow for the consideration of these 
additional alternates and cutoffs by authorizing an update of the 
original studies done for these four trails to evaluate which are 
eligible for designation as NHT segments. S. 580 maintains the 
requirements of the National Trail System Act to work closely with 
Federal agencies, State, local and tribal governments, local landowners 
and other interested parties. We anticipate the cost of updating these 
studies to be approximately $300,000.
    The intent of the National Trails System Act is one of respecting 
private property rights. Given that historic trails cross public and 
private lands, the development of strong partnerships is critical to 
administering and managing the historic trails and achieving 
preservation of trail resources and interpretation of the trail to the 
public. The four national trails in this legislation demonstrate 
existing public and private partnerships.
    This concludes my testimony. I would be happy to respond to any 
questions that you or members of the subcommittee may have.
                                 s. 686
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you to provide the Department of the 
Interior's views on S. 686, a bill to designate the Washington-
Rochambeau Revolutionary Route as a national historic trail.
    The Department supports enactment of this bill.
    The study report on the Washington-Rochambeau Revolutionary Route, 
authorized by P.L. 106-473, continues under public review until May 4, 
2007. The study has preliminarily concluded that the trail meets the 
criteria for designation as a national historic trail. Although we 
normally prefer to complete studies before making a recommendation, the 
study's central recommendation is unlikely to change this late in the 
process. The public comment period will determine if any further 
revisions to the study are required.
    S. 686 would amend the National Trails System Act to designate the 
Washington-Rochambeau Revolutionary Route National Historic Trail 
across nine states and the District of Columbia. The trail would be 
administered by the Secretary of the Interior in consultation with 
other Federal, State, tribal, regional, and local agencies, and the 
private sector.
    The Washington-Rochambeau Revolutionary Route spans over 600 miles 
from Newport, Rhode Island where French forces under the command of 
Jean Baptiste Donatien de Viemeur, comte de Rochambeau landed in July 
1780, to Yorktown, Virginia where with General George Washington and 
Continental Army forces, the combined armies forced the surrender of 
the British Army under General Charles Lord Cornwallis. Historians 
regard this cooperative endeavor resulting in the Yorktown surrender as 
one of the most decisive events in bringing the American Revolution to 
a successful conclusion. It initiated and has had the long-lasting 
effect of our continued friendship with the people of France.
    After wintering in Newport, Rochambeau's army marched through Rhode 
Island and Connecticut and joined Washington's army in Phillipsburg, 
New York. Foregoing an attack on New York City, the two generals 
decided to attack from the south. In August through September, the 
armies traversed New Jersey, Pennsylvania, Delaware, Maryland, the 
future District of Columbia, and Virginia, reaching Williamsburg in 
late September. A French fleet under Admiral DeGrasse blocked the 
Chesapeake Bay from British entry and the possible escape of British 
troops at Yorktown. On October 19, 1781, Cornwallis surrendered his 
forces to those who had suffered the hardships of rebellion and their 
allies, and ultimately forged the birth of a nation.
    In the summer of 1782, Rochambeau's army marched north to Boston 
and the bulk of his troops sailed to France on Christmas Eve of that 
year. In this crucial march south and then victoriously north after 
Yorktown, American and French troops were warmly greeted and celebrated 
by the populace. In all, nine future states and the future District of 
Columbia comprised portions of the route and supported the march, 
providing ports, roads, campsites, officers' lodging, food provisions 
and supplies.
    The extant resources associated with the marches of 1781 and 1782 
are well-documented. Comprehensive historical and architectural surveys 
have identified 750 known resources directly related to the route and 
many more in adjacent locations. Many resources found along the 
Revolutionary Route are National Historic Landmarks or sites listed on 
the National Register of Historic Places. They include campsites and 
bivouacs; historic road segments and landscapes; numerous buildings 
used for accommodations of the troops and meetings; archeological 
resources; tombstones and grave markers; and, abundant plaques, tablets 
and statues marking the passage of those, both French and American, who 
marched to secure a nation's beginning.
    The proposed trail links units of the National Park System, 
national heritage areas, and related resources administered by States, 
local governments and private organizations that commemorate the 
nation's struggle for independence. As one traverses the Washington-
Rochambeau Revolutionary Route, the places that ring of our nation's 
revolutionary past come into view from Newport to Hartford; Peekskill 
to Morristown, Princeton, and Trenton; Philadelphia and Valley Forge to 
Wilmington and Baltimore; and Mt. Vernon to Williamsburg and Yorktown.
    S. 686, if enacted, would provide for administration of the 
Washington-Rochambeau Revolutionary Route National Historic Trail by 
the Secretary of the Interior and, in accordance with provisions of the 
National Trails System Act, provide for the establishment of a trail 
advisory council. The Secretary would also consult with Federal 
agencies, State and local governments and private organizations to 
develop a comprehensive management plan for the trail. The cost 
associated with implementation of the plan could be shared by relevant 
State and local governments and private organizations, which generally 
helps to limit Federal expenditures for national trails. The Federal 
cost to administer this national trail is expected to be phased in, 
eventually reaching approximately $200,000 to $400,000 annually.
    Our experience during the course of the study for the trail has 
indicated that there is wide-spread support for designation among 
affected State and local governments and the many private organizations 
that participated in our public meetings and closely followed the 
progress of the study. For example, during the study process, a new 
nine-State nonprofit 501(c)(3) partnership group, the National 
Washington Rochambeau Revolutionary Route Association, was formed to 
support designation of the trail and education of the public on the 
Revolutionary War. This group could be a key partner in the 
preservation and interpretation of the route if the trail is 
designated. We believe that this trail, if designated, will be 
characterized by significant continued participation by the many 
governments and organizations along the route.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                 s. 722
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Administration's 
views on S. 722, a bill to direct the Secretary of the Interior and the 
Secretary of Agriculture to jointly conduct a study of certain lands 
adjacent to the Walnut Canyon National Monument in the State of 
Arizona.
    The Administration does not object to the enactment of S. 722. In 
testimony before this subcommittee in the 109th Congress, the 
Administration also did not object to the enactment of S. 556, an 
almost identical bill. However, the Administration believes that 
funding should be directed first toward completing and implementing 
ongoing studies.
    S. 722 would direct the Secretary of the Interior and the Secretary 
of Agriculture to conduct a study of approximately 31,000 acres 
surrounding Walnut Canyon National Monument (monument). The bill would 
direct the Secretaries to utilize a third-party consultant to prepare a 
draft study and designate a lead agency to conduct the study. The study 
would evaluate a range of options to manage federal and State lands 
adjacent to the monument in the long term in order to protect the 
resources and maintain public use and access to this area of Arizona, 
as well as the respect the rights of private property owners that are 
within the study area.
    S. 722 would direct the Secretaries, as well as local land 
managers, the Flagstaff City Council and the Coconino County Board of 
Supervisors to review and provide the third-party consultant with 
comments on the draft study. The bill also requires a report that 
includes findings, conclusions, and recommendations for future 
management of the study area to be transmitted by the Secretaries to 
Congress no later than 18 months after appropriations are made 
available. The bill would authorize $350,000 to carry out S. 722.
    Walnut Canyon National Monument was established on November 30, 
1915, by Presidential Proclamation with the specific purpose of 
preserving the prehistoric ruins of ancient cliff dwellings. The 
monument was expanded in 1938 and 1996 and now occupies approximately 
3,600 acres. The purposes for which the area was originally established 
have expanded to include protection of natural and cultural resources 
that are known to be significant to contemporary native tribes and the 
ecological communities and geological resources that make the canyon an 
outstanding scenic resource. The monument and the surrounding lands of 
the Coconino National Forest provide a significant natural sanctuary 
and greenbelt surrounding the city of Flagstaff.
    During the last few years, the National Park Service has been 
completing a General Management Plan (GMP) for Walnut Canyon National 
Monument. The final version of the GMP will be released for 30 day 
public review later this year. Many of the issues identified for 
resolution in S. 722 are also identified as needs in the GMP including 
addressing the history of this boundary issue and the planning efforts 
that area governments have been making that would affect the quality 
and values of the monument.
    For several years, local communities adjacent to the monument have 
debated how the land surrounding the monument would be best protected 
from future development. A number of years ago, the Coconino County 
Board of Supervisors and the Flagstaff City Council passed resolutions 
concluding that the preferred method to determine what is best for the 
land surrounding the monument is by having a federal study conducted. 
Included within the lands to be studied that surround the monument are 
approximately 2,000 acres of State trust lands. Our understanding is 
that Arizona law prohibits State lands to be donated and that the 
Arizona Supreme Court has determined that the Arizona Constitution 
prohibits the disposal of certain State land except through auction to 
the highest and best bidder. Should the study's conclusions involve 
these types of actions concerning State lands, we would have to await a 
determination on how the citizens of Arizona and their representatives 
would recommend proceeding.
    We understand the concern that National Forest System (NFS) lands 
between the Monument and the City of Flagstaff might eventually be sold 
or exchanged originally prompted local support for this proposed study. 
The proposed study area is within two miles of the campus of Northern 
Arizona University and is a prime recreation area for students, as well 
as for Flagstaff area residents. In fact, the area is the second most-
used area for recreation in the greater Flagstaff area, behind only the 
San Francisco Peaks.
    In 2003, the Coconino National Forest amended its Land and Resource 
Management Plan, resulting in a decision to provide for closure of the 
area to motorized access and to remove the land encircling the Monument 
from consideration for sale or exchange. The Flagstaff-area Regional 
Land Use and Transportation Plan (RLUTP), approved by the Flagstaff 
City Council and the Coconino County Board of Supervisors in 2002, 
limits growth and does not allow for development within the study area. 
RLUTP specifically precludes two key sections of Arizona State Trust 
land between Flagstaff and the Monument as suitable for development. 
Those lands are identified in the plan for open space and greenways.
    Mr. Chairman, I would like to note that since this bill was first 
introduced, a great deal of cooperative planning work has been 
accomplished by the National Park Service, U.S. Forest Service, State 
of Arizona, Coconino County, and the City of Flagstaff to achieve the 
bill's objectives.
    If the Committee moves forward with S. 722, Section 4 may need to 
be amended to specify that the draft study be available for public 
comment. Additionally, section 4(e)(2) should also be revised to 
require the Secretaries to ``submit to Congress a report that includes 
recommendations, if any, for the future management of'' certain lands 
adjacent to the Walnut Canyon National Monument in the State of 
Arizona, consistent with the Recommendations Clause of the 
Constitution. We will be happy to work with the Committee on the 
suggested amendments.
    Mr. Chairman that completes my prepared remarks. I would be happy 
to answer any questions that you or other members of the subcommittee 
may have.
                                 s. 783
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Department of the Interior's views on S. 
783. This bill would adjust the boundary of the Barataria Preserve Unit 
of the Jean Lafitte National Historical Park and Preserve (Park) in 
Louisiana.
    The Department supports S. 783, with a clarifying amendment. The 
bill contains an expansion of the acquisition authority contained in a 
legislative proposal transmitted by the Administration in the 108th 
Congress.
    This bill would authorize the Secretary of the Interior (Secretary) 
to acquire approximately 3,900 acres adjacent to the Barataria Preserve 
(Preserve) unit of the park that were recommended by a 1996 boundary 
study. This bill would also authorize the Secretary to acquire 
approximately 5,000 acres of a historic plantation from willing 
sellers. These private lands and waters would be added to the boundary 
of the Preserve only after they are acquired. Acquisition of all the 
lands and waters authorized by this bill would increase the authorized 
size of the Preserve from approximately 18,400 acres to approximately 
27,300 acres. Finally, the bill would make clarifying amendments to 
Title IX of the National Parks and Recreation Act of 1978, the 
legislation that established the park.
    The Jean Lafitte National Historical Park and Preserve was 
established to preserve significant examples of the rich natural and 
cultural resources of Louisiana's Mississippi Delta region. The park 
illustrates the influence of environment and history on the development 
of a unique regional culture. The Barataria Preserve, one of the park's 
six units and currently consisting of approximately 18,400 acres, is 
located in Jefferson Parish, about 10 miles south of New Orleans.
    The boundary expansion proposed by S. 783 would allow the addition 
of estuarine and freshwater wetlands to the Barataria Preserve's 
boundaries, allowing the boundary to more closely conform to existing 
waterways and levee corridors that mark the interface between 
developable land and estuarine wetlands. The expanded boundary would 
also protect wetlands that are part of the Barataria-Terrebonne 
National Estuary, the most biologically productive estuary in North 
America and a natural buffer for tropical storm surges. This estuary 
has experienced the highest rate of land loss of any of our coastal 
wetlands.
    Two of the areas proposed for acquisition--Bayoux aux Carpes and 
Bayou Segnette--total 3,905 acres and were studied by NPS in 1996 and 
found to be appropriate and suitable additions to the park. These areas 
were proposed for acquisition in an Administration legislative proposal 
forwarded to Congress during the 108th Congress.
    Approximately 3,084 of the 3,905 acres in these areas are in 
federal ownership as the result of the settlements of lawsuits, one by 
the Department of Justice and one by the U.S. Army Corps of Engineers. 
S. 783 would transfer these areas to the NPS. Currently, the NPS has 
constructive possession of the deeds for the 2,268 acres owned by the 
Department of Justice, but no authority to manage them. The Corps has 
indicated its willingness to transfer management authority for their 
815 acres of lands to the NPS once the Hurricane Protection Levee is 
complete and an easement is granted to the local levee district along 
the boundary of the tract. There are also approximately 821 acres of 
nonfederal land within these areas. All but 86 of those acres are 
either undevelopable jurisdictional wetlands or state owned highway or 
levee right-of-ways which could only be acquired by donation. All of 
the non-federal landowners within Bayou aux Carpes have been contacted 
about being included within the boundary and none have objected. 
Several have actively supported inclusion of their property within the 
proposed boundary.
    S. 783 would also allow the Secretary to acquire the 5,000-acre 
Fleming (formerly Mavis Grove) Plantation. While most of the Plantation 
is composed of wetlands that would offer recreation and watershed 
protection, the Plantation also contains a 2,000 year old Native 
American ceremonial mound, one of the most intact prehistoric sites 
remaining in the delta region. The Plantation is owned by the Fleming 
family LLC and individual Fleming family members. A representative for 
the Fleming family has contacted the National Park Service and members 
of Congress to encourage that the Plantation be added to the Preserve.
    In an Administration proposal submitted to Congress during the 
108th Congress, the National Park Service estimated the costs of 821 
acres of these private lands. Of the 821 acres, roughly 735 acres were 
wetlands that had been recently appraised at $170,000, or less than 
$300 per acre. Approximately 86 of these acres were developable, but 
were accessible only by a dirt road and do not include utilities, 
highway or waterfront access. These lands are expected to cost $25,000 
per acre, or approximately $2.1 million for 86 acres. Costs for the 
Fleming plantation are not available at this time.
    No funding has yet been identified for any of the acquisitions 
proposed in this bill. Funding for any of these purposes would be 
subject to the budget prioritization process of the National Park 
Service.
    The expanded boundary proposed in S. 783 would also include State-
owned highway rights-of-way and State-owned hurricane protection levee 
properties that run along the current boundary. Although these 
properties would remain in State ownership, their inclusion within the 
new boundary would provide opportunities for partnerships between the 
NPS and the State or its subdivisions for law enforcement and boundary 
patrol.
    Managing the additional lands, consisting of boat patrols conducted 
with varying frequency, could have an effect on park operational costs. 
Because the lands would remain undeveloped we estimate that it could 
cost approximately an additional $100,000 to manage them. A more 
accurate budget estimate would depend upon many factors, including the 
ability of the Park to reallocate resources and future plans for the 
addition. The addition of the federal properties would not contribute 
to the maintenance backlog because no facilities would be added and the 
federal lands would be acquired by direct transfer and would not 
involve acquisition costs other than those to process the transfer.
    The NPS has had extensive consultations with local governments and 
taken appropriate steps to increase public awareness on the proposed 
actions in S. 783. In 1999, both the Jefferson Parish Council and the 
Village of Jean Lafitte adopted resolutions that support the Federal 
land transfers.
    S. 783 would also amend Title IX of the National Parks and 
Recreation Act of 1978 to make corrections in the name of the park and 
the Barataria unit and amend several provisions that are obsolete or 
need clarification, including removing references to a ``Park 
Protection Zone'' that was never established by local or State 
government.
    S. 783 appears to modify the authority given to the Department by 
the 1978 act that authorized the park. The Department would like to 
work with the committee to make certain that acquisition authority 
within the existing Preserve remains consistent with the 1978 act, and 
that boundary adjustment language is consistent with bills in previous 
Congresses.
    Mr. Chairman, that completes my testimony. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 s. 890
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 890, a bill to provide for certain 
administrative and support services for the Dwight D. Eisenhower 
Memorial Commission.
    The Department has no position on S. 890 as it involves providing 
administrative and support services for an established congressional 
commission by the General Services Administration (GSA) rather than the 
Department of the Interior. We understand that the Department of 
Justice may have concerns with certain provisions on volunteer services 
in S. 890 that could significantly expand the potential for Federal 
tort liability and will advise the Committee of those concerns in the 
near future.
    The Dwight D. Eisenhower Memorial Commission (Commission) is a 
congressional commission established by Section 8162 of Public Law 106-
79 on October 25, 1999. S. 890 would amend Section 8162 to update the 
powers of the Commission and provide additional staff and support 
services to assist the Commission in performing its duties and 
responsibilities. The bill would require the GSA to provide 
administrative services on a reimbursable basis. It also would allow 
the Commission to use all contracts, schedules, and acquisition 
vehicles allowed to external clients through the GSA.
    In January 2002, the Commission's authorization was amended by 
Public Law 107-117 to require that the memorial to Dwight D. Eisenhower 
be established pursuant to the provisions of the Commemorative Works 
Act. Public Law 109-220, enacted in May 2006, authorized the memorial 
to be constructed on a site within Area I as Dwight D. Eisenhower is 
deemed to be of ``preeminent historical and lasting significance to the 
Nation.'' As a result of an alternative site study completed in 2006, 
the National Park Service, the Commission of Fine Arts and the National 
Capital Planning Commission have all approved a site south of 
Independence Avenue near its intersection with Maryland Avenue, which 
was identified in the Memorials and Museums Master Plan as Prime 
Candidate Site suitable for a presidential memorial. The next step is 
for the Commission to select a design concept in accordance with 
guidance contained in the site approval and to submit it for review by 
the Secretary of the Interior, the Commission of Fine Arts and the 
National Capital Planning Commission.
    During his term, President Eisenhower created the National 
Interstate Highway System, which remains a critical component of U.S. 
infrastructure today. Eisenhower also is credited with proposing and 
signing into law the Civil Rights Acts of 1957 and 1960, and striving 
to make the District of Columbia a model for the nation in racially 
integrating public schools. He created the precedent for the proposed 
National Parks Centennial Initiative by initiating a comprehensive ten-
year program, Mission 66, to restore and improve National Parks to meet 
the needs of a public increasingly interested in the great outdoors.
    The Department supports the work of the Commission and is willing 
to assist them throughout the process of establishing an appropriate 
permanent memorial to Dwight D. Eisenhower, the 34th President of the 
United States.
    That concludes my testimony, I would be glad to answer any 
questions that you or other members of the subcommittee may have.
                               h.r. 1047
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 1047, a bill to authorize the Secretary of the 
Interior to conduct a study to determine the suitability and 
feasibility of designating the Soldiers' Memorial Military Museum 
located in St. Louis, Missouri, as a unit of the National Park System.
    The Department opposes H.R. 1047, which is identical to legislation 
the Department opposed in the 109th Congress. While it is an 
architecturally beautiful structure, the St. Louis Soldiers' Memorial 
(Memorial) is not distinguished beyond that of many other war memorials 
in cities all over the United States. The Memorial is currently listed 
as eligible for the National Register of Historic Places, but at this 
time has not been nominated. Therefore, it is not known whether it 
meets the criteria for national significance, which is the minimum 
standard a memorial must meet for inclusion in the National Park 
System. Finally, in a time of tight budgets and a refocusing on the 
core mission of the National Park Service, we believe that funding 
should be directed toward completing previously authorized studies.
    The Soldiers' Memorial is a tribute to and a cultural resource 
center for all veterans located in the greater St. Louis area, 
including southern Illinois. In 1923, the residents of St. Louis voted 
to purchase a memorial plaza and construct a memorial to commemorate 
the citizens of St. Louis who lost their lives in World War I. A seven-
block site was purchased and the construction of the Soldiers' Memorial 
began on October 21, 1935. President Franklin D. Roosevelt officially 
dedicated the site on October 14, 1936 and the building was opened to 
the public on Memorial Day in 1938. H.R. 1047 would authorize a study 
of the Soldiers' Memorial Military Museum at 1315 Chestnut Street in 
the greater St. Louis area to determine its eligibility to become a 
unit of the National Park System. The study would be conducted in 
accordance with the criteria contained in Section 8(c) of Public Law 
91-383 (16 U.S.C. la-5(c)).
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or the subcommittee may have.

    Senator Akaka. Thank you very much, Mr. Wenk for your 
testimony here and your comments on all of the bills on behalf 
of the Department.
    Let me begin with S. 169 and S. 540, the two trail bills 
that have been before this committee many times before. Just to 
make sure the record is clear; the administration supports both 
bills, although you are recommending clarifying amendments for 
S. 169. Is that correct?
    Mr. Wenk. That is correct.
    Senator Akaka. I have a question on S. 722, the Walnut 
Canyon Study bill. This bill is somewhat unusual in that it 
requires that the study be conducted by a third-party 
consultant instead of having the two agencies undertake the 
study.
    Do you support this third-party requirement? Is there a 
substantive difference having the study prepared by an outside 
party?
    Mr. Wenk. We do support the third-party preparation of the 
statement. We believe that the concern that has led to this 
provision is that both the United States Forest Service, or the 
Department of Agriculture, and Department of Interior manage 
lands.
    A third party would provide an unbiased recommendation in 
terms of how this should move forward. Certainly, the 
Secretaries would have to determine which of the two agencies 
would be the entity that would contract for the study, but it 
would provide, if you will, an unbiased recommendation to the 
Secretaries for then a recommendation to Congress.
    Senator Akaka. Thank you. One of the witnesses appearing on 
the next panel will testify that the Park Service has made a 
mistake on not having the Washington-Rochambeau Trail run 
through Dobbs Ferry, New York. Do you know why Dobbs Ferry was 
excluded, and do you have any opinion on whether the proposed 
trail route should be modified to encompass it?
    Mr. Wenk. First of all, I do not believe that it was 
excluded. It was not shown on the map. Dobbs Ferry is a 
recognized site that is associated with the historic trail. 
It's referenced within the study that has been done, and I 
believe that we believe it is a contributing element within the 
Washington-Rochambeau trail.
    Senator Akaka. With respect to S. 783, the Jean Lafitte 
boundary expansion in Louisiana, the bill proposes to add a 
5,000-acre parcel known as the Fleming Plantation. Do you 
support this area being added to the park?
    Mr. Wenk. Yes, we do. We believe that it meets the criteria 
for addition to the preserve, yes.
    Senator Akaka. I understand that the Department is not 
taking a position on S. 890, since it involves the GSA, and not 
the National Park Service.
    Can you tell me, Mr. Wenk, whether any of the other groups 
authorized to build a memorial under the Commemorative Works 
Act have been given authority to hire Federal employees, as is 
being proposed for the Eisenhower Commission?
    Mr. Wenk. There are Federal employees under the American 
Battle Monuments Commission, which, for example, constructed 
the World War II Memorial.
    Also there were Federal employees that were used for 
planning the design services on such places as FDR Memorial and 
the Korean War Veteran's Memorial.
    Senator Akaka. With respect to H.R. 1047, the Soldiers' 
Memorial Study, you said you don't know whether the site is 
nationally significant. Isn't that one of the primary reasons 
for the study, to determine whether the site is nationally 
significant?
    Mr. Wenk. Typically, on these kinds of sites, there would 
be a determination. It is listed as eligible for the National 
Register of Historic Places, but it has not been nominated; it 
does not yet have a sponsor. Typically, we would consider it 
only after that eligibility or nomination had been determined.
    Senator Akaka. Thank you for your responses.
    Senator Thomas.
    Senator Thomas. Thank you. Going back to the National Trail 
System Willing Sellers thing: nine trails are addressed in 
there. How much land needs to be added as a result of the nine 
trails?
    Mr. Wenk. There may be no land added, sir, as a result of 
this amendment. What it provides for is protection of the 
trails that currently is not afforded to us.
    Currently we do not even have the opportunity to accept 
donations or easements because we're prohibited in spending 
funds that would be required for the surveys, title searches, 
etc. So it would just allow us the opportunity to put under 
protection the same opportunities for many other of the trails.
    Senator Thomas. Why is it called Willing Seller?
    Mr. Wenk. Because this would only be done with willing 
sellers.
    Senator Thomas. I understand, but I'm saying how much land 
are you looking to acquire?
    Mr. Wenk. We're not looking to acquire. It is, if a willing 
seller came to us and said that we would like to ensure the 
long-term protection of this, we would then have the ability to 
purchase, if they wanted us.
    Senator Thomas. So you don't have any idea of what could be 
involved there in terms of having to purchase?
    Mr. Wenk. No, we do not.
    Senator Thomas. I see. Okay. Do you have any plan to ensure 
the protection of multiple-use activities within the view shed?
    Mr. Wenk. This would allow us the opportunity to work 
under, to work with easements that would, on the scenic 
trails--that would provide the opportunity to protect view 
sheds.
    Senator Thomas. Okay. So, you don't have any involvement in 
the Eisenhower Memorial Commission then?
    Mr. Wenk. No, we do not. The site that's been designated 
would be under National Park Service jurisdiction, so the 
ultimate management and operation of the site would be the 
National Park Service.
    Senator Thomas. The development, however, would be GSA.
    Mr. Wenk. That is correct.
    Senator Thomas. I see. Okay, well, fine. On this 
Washington-Rochambeau Revolutionary Route, did you receive 
comments that the route be modified to reflect a more adequate 
interpretation of the route?
    Mr. Wenk. The public comment period is still ongoing, 
Senator Thomas. So on May 4, that public comment period ends 
and we will then evaluate the comment. I know that we believe 
it meets the criteria for designation. I do not know yet what 
all the comments are from the public.
    Senator Thomas. I see. Okay. Thank you. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you, Senator Thomas.
    Senator Landrieu, any statement or questions you may have.
    Senator Landrieu. Thank you, Mr. Chairman, I do. I'm 
pleased, though, for this panelist to finish. Then in the next 
panel I wanted to introduce one of the Mayors from Louisiana, 
so I'm fine to wait a few minutes. Thank you.
    Senator Akaka. Fine. Thank you. We're happy to have you, 
Senator Landrieu. With that do we have further questions?
    Well, I want to thank you very much for your responses here 
to this committee and thank you for being here.
    Mr. Wenk. Thank you, Mr. Chairman.
    Senator Akaka. Now I call up our second panel. Before we 
begin with this panel, I'd like to introduce the panel members: 
they are Honorable Timmy Kerner, mayor, Lafitte, Louisiana, 
Brigadier General Carl Reddel, executive director, Eisenhower 
Memorial Commission, Kim Burdick, national chairman, National 
Washington-Rochambeau Revolutionary Route Association, 
Rockland, Delaware, Linda Borkow, Dobbs Ferry Historical 
Society, Dobbs Ferry, New York, Gary Werner, executive 
director, Partnership for the National Trail System, Madison 
Wisconsin, James P. Brown, Washington office director, city of 
St. Louis, Washington, DC.
    I want to welcome all of you for coming here to testify 
today. So that we have enough time to hear all of the testimony 
and have time for questions afterwards, I'd like to ask each 
witness to please summarize their testimony and to please limit 
your remarks to no more than 5 minutes. Your complete 
statements will be included in the record along with any other 
materials you may submit.
    So our first witness is Mayor Kerner from Lafitte, 
Louisiana and let me turn to Senator Landrieu for an 
introduction.
    Senator Landrieu.
    Senator Landrieu. Thank you, Senator Akaka. I want to give 
a warm Louisiana welcome to Mayor Timmy Kerner, who's a good 
friend and a wonderful leader and public servant in Louisiana, 
who has led this small but vibrant community we call, Down the 
Bayou, from New Orleans. He is here to testify about a change 
to a bill that I introduced several years ago, and I look 
forward to working with him, and I'm very supportive of that 
change and expansion.
    He's going to give some more details about it, but it 
basically transfers not only additional land, but, Mr. 
Chairman, a very historic site of an old sugar plantation site 
to be part of the Jean Lafitte Barataria National Park. This is 
an area not too far from the city of New Orleans, but it's a 
very, very famous and very old and very historic site.
    So, I just wanted to thank the mayor for being part of the 
panel and Timmy, welcome and thank you also for your great work 
on the hurricane protection and levees. The city that this 
mayor runs is in jeopardy, is vulnerable, like many cities in 
the southern part of Louisiana, and the more we can preserve 
the wetlands, Mr. Chairman, and the more we can build these 
levees, the safer people will be in Jean Lafitte.
    So, I just wanted to welcome him and welcome the other 
panelists as well. Thank you.
    Senator Akaka. Thank you, Senator Landrieu.
    Now may I call first on Mayor Kerner.

      STATEMENT OF TIMOTHY KERNER, MAYOR, JEAN LAFITTE, LA

    Mr. Kerner. Good afternoon, Mr. Chairman and distinguished 
members of the committee. Today I come before you to speak in 
support of S. 783, the Jean Lafitte National Historical Park 
and Preserve Boundary Adjustment Act of 2007.
    This bill is important to the town of Jean Lafitte, 
Louisiana because it will allow the Lafitte National Historic 
Park to acquire the Fleming-Berthoud Plantation, which is 
located within the town of Jean Lafitte.
    It is my opinion that placing the plantation within the 
management authority of the National Park Service is the best 
means of ensuring that this historic site will be preserved for 
generations to come.
    The Fleming-Berthoud Plantation is one of the southernmost 
early sugar plantations. It surrounds a 1,000-year-old 
prehistoric Indian mound and a historic cemetery on the edge of 
Bayou Barataria. Both are very important points of interest.
    The cemetery is located where many, many members of our 
town's historic families have been laid to rest for more than a 
century. It has been photographed many times for different 
publications and has been used as a backdrop for many motion 
pictures.
    The buildings on the plantation such as the home, a 
cottage, the blacksmith shop and several other buildings are in 
poor condition, but can be restored to its original grandeur 
and become another point of interest for a community that is 
rebounding from Hurricanes Katrina and Rita.
    Acquisition and preservation of this magnificent location 
would not only enhance tourism in the area, I believe that it 
will also spur substantial tourism interest in the region and 
thereby help to create much needed jobs for local citizens.
    The Fleming-Berthoud Plantation is an important historical 
location in the Town of Jean Lafitte and I feel that this bill 
is very important for the town and for Louisiana. You will be 
approving the preservation and the possible restoration of 
important pieces of culture and history of our State.
    Mr. Chairman, that's all I have to say. I'll be ready to 
answer any questions to the best of my ability to help this 
project and this bill pass. Thank you.
    [The prepared statement of Mr. Kerner follows:]
     Prepared Statement of Timothy Kerner, Mayor, Jean Lafitte, LA
    Good afternoon Chairman Bingaman, Ranking Member Domenici and 
distinguished members of the Committee. Today, I come before you to 
speak in support of S. 783, The Jean Lafitte National Historical Park 
and Preserve Boundary Adjustment Act of 2007. This bill is important to 
the town of Jean Lafitte, Louisiana because it will allow the Jean 
Lafitte National Historic Park to acquire the Fleming--Berthoud 
Plantation, which is located within the Town of Jean Lafitte.
    It is my opinion that placing the plantation within the management 
authority of the National Park Service is the best means of ensuring 
that this historic site will be preserved for generations to come.
    The Fleming-Berthoud Plantation is one of the southernmost early 
sugar plantations. It surrounds a 1,000-year-old prehistoric Indian 
mound and a historic cemetery on the edge of Bayou Barataria. Both are 
very important points of interest. The cemetery is the location where 
many members of our town's historic families have been laid to rest for 
more than a century. It has been photographed many times for different 
publications and has been used as a backdrop for many motion pictures.
    The buildings on the plantation such as the home, a cottage, a 
blacksmith shop, and several other buildings are in poor condition, but 
can be restored to its original grandeur and become another point of 
interest for a community that is rebounding from Hurricanes Katrina and 
Rita.
    The acquiring and preservation of this magnificent location would 
not only enhance tourism in the area, I believe that it will also spur 
substantial tourism interest in the region and thereby help to create 
much needed jobs for local citizens.
    The Fleming-Berthoud Plantation is an important historical location 
in the Town of Jean Lafitte and I feel that this bill is very important 
for the town and for Louisiana. You will be approving the preservation 
and possible restoration of important pieces of the culture and history 
of our state.
    Mr. Chairman, this concludes my statement. I will be happy to 
answer any questions you may have to the best of my ability. Thank you.

    Senator Akaka. Thank you very much, Mr. Mayor.
    Now we'll here from Brigadier General Reddel.

 STATEMENT OF BRIGADIER GENERAL CARL W. REDDEL, USAF, RETIRED, 
     AND EXECUTIVE DIRECTOR, DWIGHT D. EISENHOWER MEMORIAL 
                           COMMISSION

    General Reddel. Mr. Chairman, Senator Thomas, Senator 
Landrieu, I'm the executive director of the Eisenhower Memorial 
Commission.
    As you've learned from the testimony individually submitted 
by our chairman, Rocco Siciliano and our vice chairman, Senator 
Inouye, the memorialization of President Eisenhower has 
progressed rapidly during the past year-and-a-half and this 
proposed legislation would be very helpful to keep it moving 
forward.
    We have a fully-approved site for the memorial just off the 
National Mall across the street from the National Air and Space 
Museum at the intersection of Maryland and Independence 
Avenues.
    It's the Commission's view that now that it knows where the 
memorial will be, it's time to decide what the memorial will 
be. We are entering the design phase of President Eisenhower's 
memorialization.
    The Commission was created by Congress in 1999, and fully 
appointed in 2001. The Commission is completely bi-partisan, 
made up of four Senators, four Representatives and four private 
citizens; one of our Commissioners, Susan Banes Harris, is with 
us today.
    Three of our Commissioners are World War II veterans--
Senator Inouye, Senator Ted Stevens, Rocco Siciliano--and they 
give us a direct generational link to Ike.
    During the 46 years since he left office in 1961, the 
appreciation of Ike's legacy has grown steadily, especially 
during the past quarter century. At the beginning of the 21st 
century, 132 preeminent professors of history, law and 
political science, rated him ninth among all Presidents and 
grouped him with the near-great Presidents, after the great 
Presidents, Washington, Lincoln, and FDR.
    The Eisenhower Memorial will be the seventh national 
memorial in the Nation's Capital. The preeminent location of 
the memorial is consistent with Eisenhower's legacy as a 
historical figure of major importance in the 20th century. The 
approved site is surrounded by institutions related to his 
leadership, the Federal Aviation Administration, the Department 
of Education, the Department of Health and Human Services, the 
Voice of America and the National Air and Space Museum.
    The Commission's challenge is to bring this superb location 
together with his extraordinary legacy. The Commission's staff 
organization and administrative authority need to be adjusted 
now to the design and construction of the memorial.
    Our organization is made up of the small number of 
contracted specialists and part-time hires, and this does not 
meet the design and construction needs. The proposed 
legislation will enable the Commission to hire temporary 
Federal employees instead of contract consultants, simplifying 
staffing, administration, and covering the liability of these 
employees.
    It will also enable our executive architect to adequately 
represent the Commission. We've prepared this proposal in close 
coordination with legal counsel from the agency liaison 
division of GSA, and GSA concurs that this provides the 
standard authority that is typically granted to temporary 
commissions such as ours.
    As we shift from a project planning mode to a design and 
construction mode, personal and professional liability become a 
major issue. As the designs are developed and prepared for the 
memorial, our commissioners and staff become vulnerable to 
potential lawsuits arriving from a memorial's design and 
construction.
    The current contracted staff is not covered by liability 
insurance. If the Commission is allowed to hire Federal 
employees, the need for the employees to procure additional 
insurance coverage simply ceases. Providing this coverage to 
the Commission's staff by converting them to Federal employees 
incurs no direct increased cost and is the most cost-effective 
resolution.
    We seek to hire employees whose classification is 
categorized as administratively determined. This means that 
these employees may be terminated when their services are no 
longer required by the Government and without the Government 
having any ongoing obligation to those employees.
    With this type of hiring authority, the Commission's 
dissolution upon completion of the memorial will be ceased. It 
will be ceased. Simply put, we wish to put ourselves out of 
business as quickly as possible.
    Explicit safeguards are written into the legislation to 
ensure salaries for the Commission's employees are kept within 
comparable general scale pay schedules.
    A major construction project demands professional services 
of experience and skilled engineers and architects. The 
proposed legislation enables the Commission to delegate 
authority to the executive architect to oversee the management 
of technical issues on a daily basis in the Commission's 
behalf. The Commission would retain full site responsibility 
and final approval of all matters.
    That concludes my testimony. I'd be happy to answer any 
questions that you have associated with that testimony.
    [The prepared statement of General Reddel follows:]
Prepared Statement of Brigadier General Carl W. Reddel, USAF, Retired, 
    and Executive Director, Dwight D. Eisenhower Memorial Commission
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today as the Executive Director of the 
Dwight D. Eisenhower Memorial Commission. As you have learned from the 
testimony individually submitted by our Chairman, Mr. Rocco C. 
Siciliano, and our Vice Chairman, Senator Daniel K. Inouye, the 
memorialization of President Eisenhower has continued to progress very 
rapidly during the past year and a half. The proposed legislation (S. 
890) is a vitally necessary contribution to the Commission's ability to 
continue moving forward.
    This is a moment of heightened anticipation for everyone who 
understands the, legacy of President Eisenhower. We now know where the 
National Eisenhower Memorial will be: on a fully approved site just 
across the street from the National Air and Space Museum at the 
intersection of Maryland and Independence Avenues, SW. It is now time 
to decide what the memorial will be. As we enter the design phase of 
President Eisenhower's memorialization, the legislation you have before 
you will prove vital to achieving that goal.
    Created by Congress in 1999 and fully appointed in 2001, the 
Commission is completely bipartisan and consists of four Senators, four 
Representatives, and four private citizens. It is notable that three of 
our Commissioners are decorated World War II veterans--Senator Daniel 
K. Inouye, Senator Ted Stevens and Rocco C. Siciliano. They provide a 
direct generational link to Ike. The law states that `` . . . an 
appropriate permanent memorial to Dwight D. Eisenhower should be 
created to perpetuate his memory and his contributions to the United 
States,'' and further directs that ``the Commission shall consider and 
formulate plans for such a permanent memorial to Dwight D. Eisenhower, 
including its nature, construction and location'' (Public Law 106-79).
    The appreciation and understanding of President Eisenhower's legacy 
has grown steadily during the 46 years since he left office in 1961, 
especially during the past quarter century. At the beginning of the 
21st century, 132 prominent professors of history, law and political 
science rated him 9th among all presidents and grouped him with the 
``near great'' presidents, after the ``great'' presidents--Washington, 
Lincoln and FDR. In January 2007, it was revealed that former President 
Ford considered Eisenhower ``the best president of his lifetime.'' 
Honoring his legacy with a permanent national memorial is a just and 
fitting tribute to a man whose impact is felt by every living American. 
The National Eisenhower Memorial will be the seventh national 
presidential memorial in the nation's capital.
    The preeminent location of the memorial is consistent with 
President Eisenhower's legacy as a historical figure of major national 
and international significance in the 20th century. The approved site 
is surrounded by institutions related to his presidential leadership, 
including the Federal Aviation Administration, the Department of 
Education, the Department of Health and Human Services and the National 
Air & Space Museum. Bringing the location and the legacy appropriately 
together is the challenge now before the Commission.
    The Commission's staff organization and administrative authority 
need to be adjusted in order to address the design and construction 
needs of the memorial. The existing organization, made up of a small 
number of contracted specialists and part-time hires, does not meet our 
future needs. The proposed legislation will enable the commission to 
hire temporary federal employees instead of contract consultants, 
simplifying staffing administration and covering the liability of its 
employees. This legislative proposal was developed in close 
coordination with Legal Counsel from the Agency Liaison Division of the 
General Services Administration. While addressing the specific needs of 
the Eisenhower Memorial Commission, the proposed legislation provides 
the powers historically granted temporary commissions.
    As we shift from a project planning mode to design and 
construction, personal and professional liability becomes a major 
issue. The previous work of the Commission in the areas of site 
selection and site approval meant that liability was not a major issue. 
Today it is. As designs are developed and approved for the memorial, 
however, all of our commissioners and staff become vulnerable to 
potential lawsuits arising from the design and construction of the 
memorial. Our current contracted staff is not covered by liability 
insurance. Prudence dictates they acquire such insurance as we 
transition to construction-related activities.
    The cost for this insurance is significant, as is the period of 
time that coverage must be maintained. To adequately protect 
themselves, our staff members would be required to keep these policies 
in effect for a period of ten years after the memorial is completed. 
The costs of these policies would be passed on to the government in the 
form of increased fees for their services charged by all the consulting 
contractors retained by the Eisenhower Memorial Commission.
    By hiring temporary federal employees, the need for the employees 
to procure additional insurance coverage simply ceases. As with all 
other federal employees, the Commission's employees would also be 
protected under the Federal Tort Claims Act. Because the cost of this 
legal counsel is already borne by the federal government, it is a 
``sunk cost.'' Providing this coverage to the Commission's staff by 
converting them to temporary federal employees would incur no direct 
increased cost and would in fact be the most cost effective way to 
resolve this issue.
    We seek to hire employees under the provisions of Schedule A. 
Schedule A federal employees may be terminated when their services are 
no longer required by the government. This occurs without the 
government incurring any ongoing obligation to those employees. With 
Schedule A hiring authority, the Commission's dissolution upon 
completion of the memorial will be eased.
    Explicit safeguards are written into the legislation to ensure 
salaries for the Eisenhower Memorial Commission's Schedule A employees 
are kept within comparable General Schedule pay scales. By hiring 
Schedule A employees we enhance staff stability and continuity. More 
importantly, we eliminate the time-consuming and costly process of 
annual contract submission, renewal, and approval for the majority of 
the staff. The Commission also retains the ability to continue to 
contract for specialized services where it is cost-effective.
    A major construction project demands the professional services of 
experienced and skilled engineers and architects--especially a 
prominent project located in the Nation's Capital. The proposed 
legislation enables the Commission to delegate authority to the 
Executive Architect to oversee the management of technical issues on a 
daily basis in the Commission's behalf. The commission retains full 
oversight responsibility and final approval of all matters.
    It is anticipated that the completion of the National Eisenhower 
Memorial will dramatically improve the nondescript area now serving as 
a forecourt to the Department of Education. It will provide major civic 
space near the most visited museums in the United States. Its proximity 
to the Nation's Capitol and its striking vista of the Capitol itself 
will enhance the presentation of our nation to many of its citizens and 
numerous foreign visitors alike. Honoring this great American honors 
all of us. The proposed legislation enables us to work most effectively 
toward that goal.
    I thank you for the opportunity to testify in behalf of the 
proposed legislation to support the memorialization of the President 
Dwight D. Eisenhower, Supreme Allied Commander of the Allied Forces in 
World War II and subsequently the 34th President of the United States.

    Senator Akaka. Thank you very much, General Reddel.
    Kim Burdick.

     STATEMENT OF KIM BURDICK, NATIONAL CHAIRMAN, NATIONAL 
  WASHINGTON-ROCHAMBEAU REVOLUTIONARY WAR ROUTE ASSOCIATION, 
                          ROCKLAND, DE

    Ms. Burdick. Thank you, Senator Akaka. I bring you 
greetings from volunteers in nine States and the District of 
Columbia, and many of them are here. Please stand so they can 
see everybody from W3R and also to our friends from Dobbs 
Ferry.
    Senator Akaka. Thank you for being here.
    Ms. Burdick. Dobbs Ferry proves my point, which is that 
everybody wants to be part of the action. We love the 
Washington-Rochambeau Revolutionary Route and their very 
carefully prepared testimony and history is a great testament 
to the power and magic of this route.
    We are strongly in favor of S. 686 and H.R. 1286 ensuring 
the creation of the Washington-Rochambeau National Historic 
Trail. It's a many-faceted jewel. It's patriotic. It's 
educational. It's an economic development tool and it's a 
heritage tourism dream.
    The W3R is a positive and healthy environmental 
conservation and heritage stewardship project. This historic 
trail follows old roads and old towns and cities and it can 
easily partner with greenways and blueways.
    The W3R basically needs no extra land. It has local, county 
and State government assistance and international support. It 
extends an olive branch to France, and it pleases old history 
teachers, like myself. It is a wonderful project and it is a 
legacy we wholeheartedly ask you to embrace.
    The Washington-Rochambeau National Historic Trail traces a 
685-mile route that thousands of allied American and French 
Revolutionary War soldiers and their baggage train followed to 
defeat the British at the Battle of Yorktown.
    Beginning in Newport, Rhode Island, these Allied troops 
followed the King's highway and unpaved rural roads south 
through nine States, through Connecticut, New York, including 
Dobbs Ferry, New Jersey, Pennsylvania, Delaware, Maryland, and 
the then-not-yet-created, District of Columbia into Virginia.
    The soldiers relied on the kindness, the patriotic fervor 
and sometimes the avarice of American citizens it encountered 
along the way. Their success at the Battle of Yorktown 
resulting in the British surrender of General Cornwallis on 
October 19, 1781, marked the unofficial end of the American 
Revolution.
    After the Battle of Yorktown these intrepid souls walked 
back home, ending their trek in Boston on Christmas Eve 1782, 
when the remaining French soldiers sailed home.
    W3R USA members know the National Park Service with its 
expertise, its technical services and its professional strength 
and organizational ability is needed to help make this National 
Historic Trail an enduring source of national pride.
    We know, and the employees of the National Park Service 
know, that people are fascinated by this national historic 
trail and that Americans love walking in the footsteps of 
history.
    We know because we created it. We have people here who 
actually walked all the distance, 685 miles last year, stopping 
at Congress, and also at Walter Reed Hospital to visit the 
soldiers.
    We know because we have done special 225th anniversary 
projects in every State, and I have with me Marilyn 
Whittington, the Executive Director of the Delaware Humanities 
Forum, who can tell you how very well we leverage money, tiny 
bits of money, to create magnificent programs to bring a line 
on a map alive.
    W3R volunteers in each State work together using their own 
resources, their own grocery money, to put on these programs, 
these public events. In Delaware, we've had a ``Hike the Pike'' 
Day where an 80-year-old man walked the 10 miles of the first 
leg of our stretch of the route in 140 minutes and lived to 
tell the tale.
    This creation of this national historic trail is a good 
tangible way to show the citizens that government officials are 
indeed proud to be Americans and proud of American history.
    In the process of planning and preparing 225th Yorktown 
Campaign Anniversary Celebrations in all nine States and DC, 
our volunteers learned that grass roots citizens of both 
parties were disturbed that the leaders seemed to blow off 
America's 225th Anniversary.
    We learned that most Americans are interested in real 
stories about American history--ordinary citizens, gas station 
attendants, grocery clerks, school teachers, insurance 
salesmen, artists, writers, State and county policemen and 
national guardsmen took matters into their own hands. They 
joined together to help W3R USA mark America's 225th 
Anniversary.
    Your constituents made the W3R come alive--local, county 
and city governments in the nine W3R States and DC, and 
France--contributed time, money and volunteers to this effort.
    Some of the projects are very sophisticated; others were 
simple acts of love. There was no real money for this; we just 
did it.
    Historic house museums and private homes opened their doors 
for lectures and tours. Special Rochambeau dinners and colonial 
balls were held. Jack Jouette's ride across Virginia was 
recreated and Rhode Island and the President of the Naval War 
College gave a heartwarming 225th Anniversary speech in French 
and David McCullough spoke from the heart of the important role 
of the French soldiers and the French citizens of the 13 
colonies played in fighting for our independence.
    I personally have been very touched and humbled by the 
interest and enthusiasm, the passion that people in these small 
villages and towns along this nine-State route have for this 
project.
    I am delighted to have had this opportunity to address you, 
and I most sincerely ask you to join in this constituent-
pleasing endeavor. This is a National Historic Trail like no 
other. It comes to you with its own fan club. Thank you very 
much.
    [The prepared statement of Ms. Burdick follows:]
    Prepared Statement of Kim Burdick, National Chairman, National 
Washington-Rochambeau Revolutionary War Route Association, Rockland, DE
    The National Washington-Rochambeau Revolutionary Route Association 
(W3R-USA) strongly supports SB 686 and HR 1286, ensuring the creation 
of the WashingtonRochambeau National Historic Trail. The W3R is a many-
faceted jewel. It is patriotic. It is educational. It is an economic 
development tool. It is a heritage tourism dream.
    The W3R is a positive and healthy environmental conservation and 
heritage stewardship project. This historic trail follows old roads in 
old towns and cities and can easily partner with greenways and 
blueways. The W3R needs no extra land. It has local, county and state 
government assistance and international support. It extends an olive 
branch to France and pleases old history teachers like me! It is a 
wonderful project and it is a legacy that we ask you to whole-heartedly 
embrace.
    The Washington-Rochambeau National Historic Trail (W3R) traces the 
685 mile route that thousands of allied American and French 
Revolutionary War soldiers and their baggage train followed to defeat 
the British at the Battle of Yorktown. (See pages 4, 5, 6.)*
---------------------------------------------------------------------------
    * Graphics in this document have been retained in Committee files.
---------------------------------------------------------------------------
    Beginning in Newport Rhode Island, these allied troops followed the 
Kings Highway and unpaved rural roads south through nine states, 
through Connecticut, New York, New Jersey, Pennsylvania, Delaware, 
Maryland, and the then not-yet-created District of Columbia, into 
Virginia, relying on the kindness, the patriotic fervor and sometimes 
the avarice of the American citizens they encountered along the way. 
Their success at the Battle of Yorktown, resulting in the surrender of 
British General Cornwallis on October 19, 1781, marked the unofficial 
end of the American Revolution.
    After the Battle of Yorktown, these intrepid souls walked back 
home, ending their trek in Boston on Christmas Eve 1782 when the 
remaining French soldiers sailed home.
    W3R-USA members know that the National Park Service, with its 
expertise, its technical services, and its professional strength and 
organizational ability, is needed to help make this national historic 
trail an enduring source of national pride.
    We know, and the employees of the National Park Service know, that 
people are fascinated by this National Historic Trail, and that 
Americans love walking in the footsteps of history. The board members 
and volunteers of the W3R-USA know from first-hand experience that 
creating this National Historic Trail is both a feasible and a 
reasonable project.
    We know, because we have worked on W3R projects in all nine states 
and DC, that this is a great project--a real constituent pleaser--and 
we ask you, most sincerely ask you, the members of United States 
Senate, our Congress, to authorize this National Historic Trail. We ask 
you to help us give this 225th anniversary legacy from the past, and 
the present, to the future--to your children and grandchildren; our 
children and grandchildren, to the seventh-generation to come.
    Our organization, W3R-USA, is a non-profit 501 c-3, created 
specifically to celebrate and communicate the importance of the march 
of the allied American and French soldiers of the Yorktown Campaign. 
Since before 9/11, W3R members have worked on special projects, 
seminars, symposiums, re-enactments, wreath-layings, 18th century 
concerts and dances, all geared to making this historic trail come to 
life. We spend our grocery money, our very middle-class paychecks, and 
all our spare time, breathing life into this magical story. Some of us 
have already walked the route.
    In 2004, Lee Patrick Anderson, historian at Fort Mifflin, 
Pennsylvania walked the W3R from Newport, Rhode Island to his home in 
Mullica Hill, New Jersey. In 2005 W3R-DE sponsored a ``Hike the Pike'' 
Day with people walking the first leg of Delaware's W3R Revolutionary 
Route. Sig Helstrom, an 80-year-old man from Graylyn Crest, Delaware, 
walked the ``Hike the Pike'' 's ten mile route in 140 minutes. In 2006, 
Mike Fitzgerald, Dave Holloway and David Fagerberg walked all 685 
miles, from Newport, Rhode Island to Yorktown, Virginia, arriving in 
time for the 225th Anniversary of the Yorktown Campaign. Boy Scouts in 
Rhode Island and other states, college students, and interested persons 
along the Route joined the marchers from time to time, sometimes 
marching the W3R across their home states, sometimes walking for many 
days, then going back to work, only to rejoin the marchers in another 
state.
    W3R volunteers in each state welcomed the marchers as they crossed 
over each state's borders, local residents hung breathlessly on their 
words as they told about their adventures and misadventures; the towns 
and cities held celebrations, parties and dinners celebrating both the 
historic march and the contemporary marchers; and we are currently 
hoping to raise enough money to produce a documentary film about their 
journey.
    The creation of this National Historic Trail is a good, tangible 
way to show the citizens that Government officials are, indeed, proud 
to be Americans and proud of American history. In the process of 
planning and preparing 225th Yorktown Campaign anniversary celebrations 
in all nine states and DC, we learned that the grass-roots citizens of 
both parties have been very disturbed that our leaders seemed to blow 
off America's 225th anniversary. We learned that most Americans are 
interested in the real stories about American history. Ordinary 
citizens, gas-station attendants, grocery clerks, school teachers, 
insurance salesmen, artists, writers, state and county policemen and 
national guardsmen took matters into their own hands. They joined 
together to help W3R-USA mark America's 225th anniversary. The 
constituents made the W3R come alive. Local, city, county, and state 
governments in the nine W3R states, DC, and France contributed time, 
money and volunteers to this effort. Some of the projects were very 
sophisticated; others were simple acts of love.
    Historic house museums and private homes opened their doors for 
lectures and tours. Special Rochambeau dinners and colonial balls were 
held. Jack Jouette's ride across Virginia was recreated. W3R volunteers 
began to wear matching scarves and neckties to show solidarity. French 
Ambassador Levitte and Consul General Alex-Lyoudi were honored guests 
in every one of these states, and faithfully attended wreath-layings, 
commemorative events, wayside marker dedications, and wine and cheese 
parties. The President of Rhode Island's Naval War College gave a 
heart-warming 225th Anniversary speech in French, and David McCullough 
spoke from the heart of the important role that the French soldiers-and 
the French citizens of the thirteen colonies played in fighting for our 
independence.
    A poor black lady in Wilmington humbly offered the marchers money 
for a cup of coffee, another who saw them marching through her 
neighborhood offered to make them a pancake breakfast. An Italian-
American woman spent all day making them homemade soup because she knew 
they were cold, wet and hungry. A first-generation American from 
Scotland wrote a marching tune for America's 225th anniversary.
    An artist from Scotland, Connecticut is painting 100 wall-sized 
canvases that illustrate the story of the allied French and American 
troops, illustrating the scenes along the 685 mile route with love and 
good cheer. Black Patriots from across the nation attended a Delaware 
Humanities Forum conference in north Wilmington, to discuss the roles 
their own ancestors had played in the American Revolution; a Rochambeau 
re-enactor living in the State of Washington criss-crossed the country 
repeatedly to participate in activities all along this 685 mile route.
    I, personally, have been very touched and humbled by the interest 
and enthusiasm, the fun and the frustration, of working on the 
Washington-Rochambeau Revolutionary Route. It has been a beautiful and 
a heart-warming experience for me, a history teacher, and a mother; a 
descendant of Revolutionary War soldiers, and, a person of French 
descent, to see this project come together.
    I am delighted to have had this opportunity to address you, and I 
most sincerely ask you to join us in this constituent-pleasing 
endeavor. This is a National Historic Trail like no other. It comes to 
you with its own fan club!
    Thank you all very much for all you do, every day, for the citizens 
of the United States of America.

    Senator Akaka. Thank you very much, Kim.
    Linda Borkow.

  STATEMENT OF LINDA BORKOW, DOBBS FERRY HISTORICAL SOCIETY, 
                        DOBBS FERRY, NY

    Ms. Borkow. Thank you. Does everybody have a packet that 
should have been distributed, which I'm going to refer to as I 
speak, this packet, with a colored map on the front?
    Senator Akaka. That will be included in the record, Linda 
Borkow.
    Ms. Borkow. Thank you, Mr. Chairman and members of the 
committee.
    My purpose today is to ensure that Dobbs Ferry, New York 
receives appropriate historical recognition on the map which 
accompanies the Washington-Rochambeau National Historic Trail 
legislation and that it also receives appropriate recognition 
in the National Park Service study which is related to this 
legislation.
    The 1781 encampment of the American and French armies in 
Dobbs Ferry and neighboring localities has great historical 
significance. The strategy which led to victory at Yorktown was 
adopted at the encampment in mid-August 1781 and the first 
steps of Washington's march from New York to Virginia were 
taken on Dobbs Ferry's main roads and principle intersection, 
Ashford Avenue and Broadway, when the Continental Army broke 
camp on August 19, 1781.
    Please examine the first page of your packet.* Here we have 
a primary resource, the map of the encampment, prepared by 
General Rochambeau's cartographer. At the top of the map, we 
see that Dobbs Ferry is named. As the legend indicates the map 
shows the locations of the American army, the French army, 
George Washington's headquarters and General Rochambeau's 
headquarters. No. 7, very close to the Hudson River shows the 
location of Sheldon's Dragoons, the first cavalry unit of the 
United States.
---------------------------------------------------------------------------
    * Graphics in this document have been retained in Committee files.
---------------------------------------------------------------------------
    Dobbs Ferry's importance as the starting point of 
Washington's march to Virginia is highlighted on the next map, 
page two, prepared at West Point.
    Dobbs Ferry is also highlighted as the point of origin of 
Washington's march to Virginia on the map on page three which 
was prepared by the National Park Service apparently for some 
different project and which does not accompany the legislation 
under discussion today.
    When we look at the map that does accompany the 
legislation, on page four, we note 18 localities which are 
named along the Washington-Rochambeau route, but Dobbs Ferry is 
not one of them. This is a serious omission and we urge that it 
be corrected.
    We respectfully ask this question. Apart from Yorktown 
itself, what site along the route of Washington's march to 
Virginia is more significant than its starting point?
    Historian Benson Bobrick underscores the importance of 
Washington's march from New York to Virginia when he describes 
it as the largest and perhaps boldest movement of the war. Its 
success required the utmost secrecy and the precise timing and 
coordination of multiple naval and land movements. It is this 
march from New York to Virginia which gives the entire 
Washington-Rochambeau route its great historical importance.
    Let's turn now to additional primary sources. Excerpts from 
Washington's correspondence at the time of the 1781 encampment 
can be found in the next three pages of your packet. In July 
and August of that year, Washington wrote approximately 100 
letters with the place names, Head Quarters Dobbs Ferry, Head 
Quarters Dobbs's Ferry, Head Quarters near Dobbs Ferry or Camp 
near Dobbs Ferry appearing at the top of each letter.
    From this abundance of documentation, we can see that Dobbs 
Ferry, or Dobbs's Ferry, was Washington's preferred designation 
for the location of the 1781 encampment of the Allied American 
and French armies.
    We do not know why the Washington-Rochambeau National 
Historic Trails Study and the map accompanying this legislation 
omit Dobbs Ferry.
    We submitted a lengthy written response to the National 
Park Service on December 2, 2006, during the public comment 
period. Our response is included in your packet. In that 
response, we explained our concerns about the omission of Dobbs 
Ferry and provided a great deal of supporting historical 
documentation.
    While we would welcome any feedback including any 
disagreement or challenge that is based on historical evidence, 
no one to date has challenged the historical accuracy of our 
lengthy written response.
    So, we are very hopeful that the National Park Service will 
recognize that Dobbs Ferry is not just one more location along 
the Washington-Rochambeau route, but that it is, instead, a key 
site of special historical significance.
    We are here to support the National Historic Trail 
legislation but at the same time, we urge that the study and 
the map be corrected.
    If the role of Dobbs Ferry is not clarified in the study 
and on the map, our mission to educate the public and to raise 
the level of public awareness of the great events which 
transpired in our communities during the Revolutionary War will 
be undermined.
    There has been a major effort in Dobbs Ferry over the past 
year to inform the public about these great events in our 
history. Persons working toward this goal include Dr. Mary 
Donovan, president of the Historical Society, Joseph Bova, 
mayor of Dobbs Ferry and many others. In order to succeed, we 
need your support.
    [The prepared statement of Ms. Borkow follows:]
  Prepared Statement of Linda Borkow, Dobbs Ferry Historical Society, 
                            Dobbs Ferry, NY
    My name is Linda Borkow, and I have come on behalf of the Dobbs 
Ferry Historical Society.
    My purpose today is to ensure that Dobbs Ferry, New York, receives 
appropriate historical recognition on the map which accompanies the 
Washington Rochambeau National Historic Trail legislation and that it 
also receives appropriate recognition in the National Park Service 
Study which is related to this legislation.
    The 1781 encampment of the American and French armies, in Dobbs 
Ferry and neighboring localities, has great historical significance. 
The strategy which led to victory at Yorktown, was adopted at the 
encampment in mid-August, 1781. And the first steps of Washington's 
march from New York to Virginia were taken on Dobbs Ferry's main roads 
and principal intersection, Ashford Avenue and Broadway, when the 
Continental army broke camp on Aug. 19, 1781.
    Please examine the first page of your packet. Here we have a 
primary resource, the map of the encampment prepared by General 
Rochambeau's cartographer.
    At the top of the map, we see that Dobbs Ferry is named.
    As the legend indicates, the map shows the locations of the 
American army, the French army, General Washington's headquarters, and 
General Rochambeau's headquarters.
    Number 7, very close to the Hudson River, shows the location of 
Sheldon's Dragoons, the first cavalry unit of the United States.
    Dobbs Ferry's importance as the starting point of Washington's 
march to Virginia is highlighted on the next map (page 2), prepared at 
the United States Military Academy. Dobbs Ferry is also highlighted as 
the point-of-origin of Washington's march to Virginia on the map on 
page 3, which was prepared by the National Park Service, apparently for 
a different project, and which does not accompany the legislation under 
discussion today.
    When we look at the map which does accompany the legislation (page 
4), we note 18 localities which are named along the Washington-
Rochambeau Route, but Dobbs Ferry is not one of them. This is a serious 
omission, and we urge that it be corrected.
    We respectfully ask this question: Apart from Yorktown itself, what 
site along the route of Washington's march to Virginia is more 
significant than its starting point?
    Historian Benson Bobrick underscores the importance of Washington's 
March from New York to Virginia when he describes it as ``the largest 
and perhaps boldest movement of the war.''
    Its success required the utmost secrecy and the precise timing and 
coordination of multiple naval and land movements. It is this march, 
from New York to Virginia, that gives the entire Washington-Rochambeau 
Route its great historical importance.
    Let's turn now to additional primary sources. Excerpts from 
Washington's correspondence at the time of the 1781 encampment can be 
found on the next pages of your packet. In July and August of that year 
Washington wrote approximately a hundred letters with the place-names, 
``Head Quarters Dobbs Ferry,'' ``Head Quarters Dobbs's Ferry,'' ``Head 
Quarters near Dobbs Ferry,'' or ``Camp near Dobbs Ferry'' appearing at 
the top of each letter.
    From this abundance of documentation we can see that ``Dobbs 
Ferry'' or ``Dobbs's Ferry'' was Washington's preferred designation for 
the location of the 1781 encampment of the allied American and French 
armies.
    We do not know why the Washington-Rochambeau National Historic 
Trail Study and the map accompanying this legislation omit Dobbs Ferry. 
We submitted a lengthy written response to the National Park Service on 
December 2, 2006, during the public comment period. Our response is 
included in your packet. In that response we explained our concerns 
about the omission of Dobbs Ferry and provided a great deal of 
supporting historical documentation.
    While we would welcome any feedback--including any disagreement, or 
challenge that is based on historical evidence--no one, to date, has 
challenged the historical accuracy of our lengthy written response.
    So we are very hopeful that the National Park Service will 
recognize that Dobbs Ferry is not just one more location along the 
Washington-Rochambeau Route but that it is, instead, a key site, of 
special historical significance.
    We are here to support the National Historic Trail legislation. But 
at the same time, we urge that the Study and the map be corrected.
    If the role of Dobbs Ferry is not clarified in the Study and on the 
map, our mission, to educate the public, and to raise the level of 
public awareness of the great events which transpired in our 
communities during the Revolutionary War, will be undermined.
    There has been a major effort in Dobbs Ferry over the past year to 
inform the public about these great events in our history. Persons 
working towards this goal include Dr. Mary Donovan, President of the 
Historical Society, Joseph Bova, Mayor of Dobbs Ferry, the trustees of 
the Historical Society and the trustees of the Village of Dobbs Ferry. 
In order to succeed, we need your support.

    Senator Akaka. Thank you very much, Linda.
    And now Gary Werner.

 STATEMENT OF GARY WERNER, EXECUTIVE DIRECTOR, PARTNERSHIP FOR 
             THE NATIONAL TRAIL SYSTEM, MADISON, WI

    Mr. Werner. Thank you, Mr. Chairman and Senator Thomas for 
the opportunity to speak to you this afternoon.
    I'm here representing the Partnership for the National 
Trail System, which is a non-profit federation of 29 
organizations with approximately 70,000 members throughout the 
country. All of these organizations work either directly or 
indirectly with the National Park Service, the U.S. Forest 
Service and the Bureau of Land Management to help sustain 
America's 25 National Scenic and Historic Trails, and I'm here 
to testify and urge support for S. 169 and S. 580.
    I should say in regard to S. 169, Senator Thomas, I want to 
thank you, especially for your public spirited work in the 
108th Congress to find the right balance between providing the 
authority to help provide the rights-of-way needed for these 
trails while at the same time protecting other land uses that 
are going on adjacent to the trails.
    I know that this could have been an impasse, and you found 
a way to make something happen for the public good and the 
private interest and I really thank you for doing that.
    As has been mentioned already, the S. 169 would provide 
consistency throughout the National Trail System. Of the 25 
trails, 16 of them have land acquisition authority for the 
Federal agencies. These nine trails do not.
    I'd like to note that since these trails were authorized, 
ten additional trails have been authorized. All of those trails 
have the authority, the willing seller authority, that this 
bill would provide for these nine trails.
    The most recent trails to receive that authority are the 
Old Spanish Trail in 2002 and the Captain John Smith Chesapeake 
National Historic Trail in 2006. So Congress has repeatedly 
provided this authority.
    There is a need for it. Of the four National Scenic Trails 
involved, only about 5,600 out of 9,300 authorized miles of 
trail are actually open for public use. The rest is on private 
land and some kind of rights-of-way will need to be secured.
    Of the historic trails, only 26 percent of the high 
potential sites are protected in some kind of way for public. 
There are willing sellers out there.
    On the Ice Age Trail in Wisconsin, the Wisconsin Department 
of Resources has worked with over 50 people in the last 6 or 7 
years to acquire rights-of-way for the trail.
    Regarding S. 580 that--like S. 169--is a bill that you 
have, as you noted Mr. Chairman, passed several times out of 
the Senate and sent over to the House, it's a bill which would 
provide for a feasibility study for the Oregon-California Pony 
Express and Mormon Pioneer Trails to update the knowledge that 
we have of many of the additional routes, cutoffs, and feeder 
trails that led to these important routes in the American West.
    A lot of the work has already been done by members of the 
Oregon-California Trail Association and others to do the 
studies. The members of OCTA and other organizations work very 
closely and cooperatively with land owners.
    They've also worked cooperatively with the oil and gas 
industry in Wyoming, in particular, and have reviewed over 
1,000 oil and gas permits over the last 6 years and offered 
comments to the Bureau of Land Management.
    They have recommended litigation in a few instances, but 
they have not objected to any of those oil and gas leases and 
indeed, Anadarko and several of the other major oil and gas 
producing companies working in Wyoming, have received awards 
from the Oregon-California Trail Association. I know, Senator 
Thomas, you're going to be participating in an event at the end 
of May, in which Anadarko has donated an easement for a 
significant gap in the Continental Divide National Scenic Trial 
around Rawlins.
    If you remember the situation in 2003, when we had a 
hearing on this bill, the amount of work that you have done and 
that we have done and others have done over the intervening 
years, the attitude, if you will, about the impact of this 
particular bill on private land and things like that, has 
changed substantially. We look forward to continuing to work 
with you and other members of the committee to complete these 
trails so they can be available for everyone to enjoy to their 
fullest. Thank you.
    [The prepared statement of Mr. Werner follows:]
Prepared Statement of Gary Werner, Executive Director, Partnership for 
                the National Trails System, Madison, WI
          s. 169--willing seller authority for national trails
    Mr. Chairman and members of the Subcommittee on National Parks, the 
Partnership for the National Trails System strongly supports S. 169, 
the ``National Trails System Willing Seller Act,'' introduced by 
Senators Allard and Levin. S. 169 is identical to legislation passed by 
the Senate by unanimous consent during the 108th Congress.
    S. 169 provides authority to Federal agencies to purchase land and 
interests in land from willing sellers for all nine trails for which 
Federal agencies currently are prohibited from buying land: the Oregon, 
Mormon Pioneer, Lewis and Clark, Iditarod and Nez Perce National 
Historic Trails and the Continental Divide, Ice Age, North Country and 
Potomac Heritage National Scenic Trails authorized by Congress 20 or 
more years ago. The Partnership urges you to promptly recommend S. 169 
for passage by the Senate.
    The Partnership for the National Trails System is a nonprofit 
federation of 29 citizen organizations with 70,000 members that 
directly support and help manage national scenic and historic trails in 
partnership with the National Park Service, USDA Forest Service, and 
the Bureau of Land Management.
    S. 169 is an important remedial bill that corrects a gross 
disparity and inconsistency in the National Trails System Act. While 
Congress created the Act in 1968 to foster and sustain a nationwide 
system of trails with a full array of authority necessary for Federal 
agencies to administer them, nine scenic or historic trails have been 
authorized without any Federal land acquisition authority. Federal 
administering agencies lack the fundamental and often essential means 
for protecting the integrity of the resources and the continuity of the 
footpaths for more than one-third of the National Trails System, while 
Congress has provided those agencies with such willing seller or 
greater land acquisition authority for the rest of the System, 
including the Old Spanish National Historic Trail authorized in 2002 
and the Captain John Smith Chesapeake National Historic Trail 
authorized in 2006.
    This inconsistency of land acquisition authority severely hampers 
appropriate administration of more than one-third of the National 
Trails System. Perhaps the most striking example of this inconsistency 
and disparity is the four national historic trails administered by the 
National Park Service in Salt Lake City, Utah. Currently the Park 
Service has authority to buy land from willing sellers along the 
California and Pony Express National Historic Trails, but is prohibited 
from doing so along the Oregon and Mormon Pioneer National Historic 
Trails.
    This inconsistency seems highly ironic since the four trails share 
the same route across most of Nebraska, Wyoming and Utah. If a 
landowner offers to sell land to the Federal government containing 
historic traces of these four trails it is unclear what authority the 
Park Service has to act upon. With authority to buy land for two of the 
trails but not for the other two, would the conflicting authorities 
cancel each other or would the land be able to be purchased for the two 
trails and the other two left unrecognized on the site? Perhaps this is 
an odd situation, but it illustrates a peculiar and frustrating 
inconsistency in the Trails Act with important consequences for the 
day-to-day management and protection of these trails.
    To restore consistency and parity to the National Trails System Act 
it is critical that willing seller land acquisition authority be 
provided for all nine trails for which Federal agencies currently are 
prohibited from buying land.
    S. 169 does just that. This bill provides willing seller land 
acquisition authority for the Oregon, Mormon Pioneer, Lewis and Clark, 
Iditarod and Nez Perce National Historic Trails and the Continental 
Divide, Ice Age, North Country and Potomac Heritage National Scenic 
Trails.
    There is real need for Federal agencies to be able to help protect 
the resources and continuity of these trails by acquiring land from 
willing sellers. Of the three trails in the eastern half of the country 
affected by S. 169, the Ice Age, North Country and Potomac Heritage 
Trails, which lie primarily across private land, slightly more than 
one-third, about 2,522 miles, of their projected 6,115 mile length is 
permanently protected for public use. The other national scenic trail 
without Federal land acquisition authority, the Continental Divide 
Trail, mostly crosses public land and is nearly complete. Only about 
113 miles of right-of-way for the Continental Divide Trail remain to be 
acquired. In total these four national scenic trails are projected to 
be more than 9,300 miles long when completed, yet 25 years after their 
authorization only about 5,600 miles, slightly more than half their 
length, are permanently protected for public benefit. Without the 
ability for Federal agencies to purchase permanent rights-of-way from 
willing sellers it is unlikely that these trails will ever be the 
continuous pathways intended by Congress.
    The degree of protection of the five national historic trails 
without Federal land acquisition authority is comparable to the 
condition of the four national scenic trails. Only 194 of the 730 
significant sites and segments documented to date along the Oregon, 
Mormon Pioneer, Lewis and Clark, Nez Perce and Iditarod National 
Historic Trails are permanently protected. This amounts to only 26% of 
the recognized places along these trails that can provide visitors 
first hand experience of where important events of our Nation's history 
occurred. The attached table documents the degree of protection of the 
resources and rights-of-way for each of the nine trails without Federal 
land acquisition authority.
    Without the ability for Federal agencies to acquire sites and 
segments along these nine trails from willing sellers, irreplaceable 
resources and experiences of our Nation's heritage will be lost 
forever. An example of this loss occurred several years ago on the Ice 
Age National Scenic Trail in Dane County, Wisconsin. Several properties 
in the Towns of Middleton and Verona, totaling about two miles of trail 
in a rapidly urbanizing area, were put up for sale over the past 
several years. Their purchase for the Ice Age Trail would have 
protected a nationally significant portion of the terminal moraine of 
the most recent continental glaciation, providing a stunning 
opportunity for the public to appreciate and enjoy the contrast of two 
startlingly dissimilar landscapes. Lacking buyers able to purchase and 
protect these properties they were subdivided for rural residential 
development. Local government zoning authority was used to preserve a 
narrow corridor for the Ice Age Trail to weave among the luxury homes.
    The chance to permanently protect a critical link in the North 
Country National Scenic Trail in New York was lost in a similar manner. 
At the west end of Watkins Glen State Park, New York there is roughly a 
half-mile of private woods, a thin strip along the creek that tumbles 
into the Glen previously belonging to an adjacent farm. To the west of 
the private strip is a long stretch of mostly state forest, protecting 
a days' worth of walking on the North Country Trail. The Department of 
Environmental Conservation (DEC) had been negotiating with the farmer 
over that strip along the creek for years, and he was willing to sell, 
but the DEC was waiting for funding. A willing seller who also seemed 
willing to wait held the property, which would consolidate many miles 
of North Country Trail and protect the border of a park potentially 
beleaguered by development along its edges.
    However, the state waited too long. When they finally had the money 
to buy the land they found that he had sold out, unannounced, to a new 
party who, while he has not thrown out the trail, is not interested in 
selling to the state.
    The willing seller land acquisition authority provided for the nine 
trails included in S. 169 and subsequent appropriations from the Land & 
Water Conservation Fund will enable the Federal agencies administering 
them to respond to such conservation opportunities as they arise. Each 
year willing sellers offer for sale many parcels along critical 
segments of these trails.
    The State of Wisconsin has been purchasing land from willing 
sellers to protect segments of the Ice Age and North Country Trails for 
the past ten years, matching Land & Water Conservation Fund money with 
Wisconsin Stewardship Fund money. Four fee title acquisitions, from 40 
acres to 339 acres in size, have been completed by the State to protect 
segments of the North Country Trail over the past four years. The State 
also has acquired two easements for the trail.
    The State of Wisconsin and several counties have spent more than 
$13 million in purchasing land for the Ice Age Trail over the past 15 
years. More than 50 willing sellers have sold their parcels of land, 
ranging in size from 5 acres to 1,200 acres, for the Ice Age Trail. 
Negotiations are underway with more than three dozen additional willing 
sellers. State and county land agents have mostly been responding to 
landowners who have contacted them offering to sell their land. Dealing 
with these offers from willing sellers has left little time to contact 
others of the hundreds of landowners along the Ice Age Trail about 
their interest in selling land.
    S. 169 provides the authority for Federal administering agencies to 
respond to these and similar opportunities provided by willing sellers 
to acquire land for recreation and education that will be appreciated 
for generations to come. Federal assistance will be a necessary 
complement to all the efforts of private organizations and state and 
local agencies to help protect the nine national scenic and historic 
trails aided by S. 169.
    Providing willing seller land acquisition authority for the six 
national scenic and historic trails in the West without it will have 
little potential impact on the amount of land owned by the Federal 
government. More than 95% of the Continental Divide National Scenic 
Trail is already on public land. Federal land acquisition for the 
national historic trails is limited by Section 7(a)(2)(g) of the 
National Trails System Act to the identified ``high potential sites and 
segments''. ``For national historic trails, direct Federal acquisition 
for trail purposes shall be limited to those areas indicated by the 
study report or by the comprehensive plan as high potential route 
segments or high potential historic sites.'' These ``high potential 
sites and segments'' are very specific, documented locations along 
these trails.
    In Wyoming, for instance, which is crossed by four of these trails, 
the sites that could be acquired by the Federal government if Congress 
provides willing seller authority are limited to a few areas:

  <bullet> Continental Divide National Scenic Trail.--The route of this 
        trail in Wyoming is on public land through Yellowstone National 
        Park, several national forests, and Bureau of Land Management 
        land except for a stretch of 20 miles or so in the 
        ``checkerboard area'' north and south of Interstate 80 near 
        Rawlins. This section of the Continental Divide Trail currently 
        follows highways, but can be moved ``off-road'' by acquiring a 
        right-of-way across the Sections of private land in the 
        checkerboard between the Sections of public land administered 
        by the Bureau of Land Management. The Continental Divide Trail 
        Alliance has recently received confirmation of the donation of 
        an 18 mile easement in the Great Divide Basin north and south 
        of Rawlins thanks to the generosity of Anadarko. A signing 
        ceremony with Senator Thomas and former Assistant Secretary of 
        Interior and current CDTA board chair Rebecca Watson will occur 
        on May 31 as an early celebration of National Trails Day. 
        Although this donation nearly closes this significant gap in 
        the CDT more right-of-way will need to be acquired to eliminate 
        the trail route on highways. Acquisition of a trail right-of-
        way via an easement will add no acres to the fee title holdings 
        of the Federal government in Wyoming.
  <bullet> The ``Comprehensive Management and Use Plan for the Oregon, 
        California, Mormon Pioneer and Pony Express National Historic 
        Trails'' identifies 37 ``high potential sites'' along the 
        Oregon and Mormon Pioneer National Historic Trails in Wyoming. 
        Of these sites, 12 are on private land. Although a precise 
        survey of each site has not been made, National Park Service 
        staff estimate that purchase of either fee title or a 
        conservation easement to 1 to 10 or possibly 20 acres from 
        willing sellers would be sufficient to protect the critical 
        historic resources at each site. The other 25 ``high potential 
        sites'' are on public land or a combination of public and 
        private land.
    Of the 6 ``high potential segments'' of the Oregon and Mormon 
        Pioneer National Historic Trails identified in Wyoming, one 15 
        mile long segment is on private land. The other 5 segments, 
        some 268 miles of the historic trails, cross a mixture of 
        public and private land.
  <bullet> Nez Perce National Historic Trail.--Approximately 99% of the 
        route of this trail in Wyoming is already on public land 
        through Yellowstone National Park, Shoshone National Forest and 
        State of Wyoming land. Of the 137 miles of the one ``high 
        potential segment'' in Wyoming, 135 miles are on public land 
        and 2 miles are on private land.

    In summary, the main impact of willing seller land acquisition 
authority for these trails on Federal and private land ownership in 
Wyoming would be along the one section of the Continental Divide 
National Scenic Trail, one 15 mile long ``high potential segment'' and 
12 ``high potential sites'' along the Oregon and Mormon Pioneer 
National Historic Trails and 2 miles of one ``high potential segment'' 
of the Nez Perce National Historic Trail.
    The need and opportunity to use willing seller land acquisition 
authority will arise at different times for the various trails. For 
some, the authority may not be used for many years or only 
infrequently. For others the need for this authority is more acute and 
it is likely to be used as soon as Congress makes it available and to 
be used often. Although the National Park Service has had authority to 
buy land from willing sellers for more than a decade for the California 
and Pony Express National Historic Trails, no land has been purchased 
to protect sites along these trails. On the other hand, there is a very 
urgent need for the National Park Service to join State and local 
agencies and private land trusts in buying land to provide continuous 
rights-of-way for the Ice Age and North Country National Scenic Trails.
    The Partnership for the National Trails System is very grateful to 
Senators Allard and Levin for introducing S. 169 to provide willing 
seller authority for the nine national scenic and historic trails 
lacking it. We ask that you recommend S. 169 for passage to the Senate, 
so that progress can be made toward restoring parity and consistency 
within the National Trails System.
          s. 580--pioneer national historic trails studies act
    The Partnership for the National Trails System strongly supports S. 
580, to update the Feasibility Studies of the Oregon, California, 
Mormon Pioneer, and Pony Express National Historic Trails, introduced 
by Senator Hatch, and requests that you request the Senate Energy and 
Natural Resources Committee to recommend adoption of S. 580 to the full 
Senate. This bill authorizes the National Park Service to update the 
Feasibility Studies for these four National Historic Trails by 
examining additional routes and cutoffs of these trails for possible 
inclusion in the National Trails System. The bill also authorizes the 
Secretary of Interior, upon completion of those studies, to recommend 
to Congress which of those routes and cutoffs qualifies under the 
National Trails System Act for addition to the National Trails System. 
Congress would then decide whether to add the recommended routes and 
cut-offs to the National Trails System.
    Considerable research, much of it done by volunteers of the Oregon-
California Trails Association, Mormon Trails Association and National 
Pony Express Association, has documented important routes and cutoffs 
used by the 19th Century travelers of these trails that were not 
recognized in the original feasibility studies. Although those 
feasibility studies and the authorization as national historic trails 
by Congress based upon them recognized the main routes of the four 
trails, many of the ``feeder trails'' at the eastern ends and 
``dispersal routes'' at the western ends of them were not recognized. 
To preserve to the fullest extent all the historic and cultural 
resources associated with these important routes of development of the 
United States and to present the richness of their stories as 
completely as possible, it is essential and right that the National 
Park Service should be authorized to evaluate all their routes and 
cutoffs for possible inclusion in the National Trails System.
    Several important ``main routes'' were not included in the original 
feasibility studies. The Cherokee Trail, for instance, included in S. 
580, was an important route used by Native Americans to travel from 
Indian Territory to the gold fields of California. To overlook this 
significant, but probably not widely appreciated, chapter of our 
history would be a very unfortunate oversight. Examination of the 
Cherokee Trail for possible national recognition will allow the 
opportunity for many more Americans to more fully understand the range 
of aspirations of some 19th Century Native Americans.
    The understanding of our history and the diverse cultures it has 
produced is not static. Rather, like a living organism it is dynamic 
and grows with new discoveries and re-interpretations of previous 
information. As a Nation we are much richer and stronger because of 
such advances in the understanding of our history that enable us to 
more fully appreciate both the contributions of the many peoples and 
cultures that have inhabited our land before us and the injustices 
brought upon them through ignorance, prejudice and greed.
    Our National Trails System should be in the forefront of 
recognizing the full stories of our past, as we are best able to 
understand them and to preserve the physical reminders of those stories 
to the fullest extent possible.
    S. 580 provides the opportunity to update the Feasibility Studies 
for these four trails to reflect significant new research since the 
original studies were completed. The bill is a necessary opportunity to 
assure that significant components of our history are recognized and 
preserved to enrich our understanding of our past and to allow future 
generations to do so, too.
    The Partnership urges you to recommend adoption of S. 580 to your 
colleagues on the Energy and Natural Resources Committee and to the 
full Senate.
    The Partnership for the National Trails System appreciates the 
prompt consideration you have given to S. 169 and S. 580 and the 
opportunity to provide these comments in support of them for the 
hearing record. We urge you to promptly recommend passage of this 
legislation important for restoring consistency to the National Trails 
System Act and for authorizing a study of the feasibility of adding 
important components to existing national historic trails.

 STATUS OF NINE NATIONAL SCENIC AND HISTORIC TRAILS WITHOUT FEDERAL LAND
                          ACQUISITION AUTHORITY
------------------------------------------------------------------------
                                       Projected  Protected  Unprotected
        National Scenic Trail            Length     Length      Length
                                        (Miles)    (Miles)     (Miles)
------------------------------------------------------------------------
Continental Divide Trail.............      3,200      3,087         113
Ice Age Trail........................      1,200        511         689
North Country Trail..................      4,200      1,546       2,654
Potomac Heritage Trail...............        715        465         250
                                      ----------------------------------
      TOTAL..........................      9,315      5,609       3,706
------------------------------------------------------------------------


          STATUS OF NINE NATIONAL SCENIC AND HISTORIC TRAILS WITHOUT FEDERAL LAND ACQUISITION AUTHORITY
----------------------------------------------------------------------------------------------------------------
                                        No. Significant Sites/      Protected Sites/        Unprotected Sites/
       National Historic Trail                 Segments                 Segments                 Segments
----------------------------------------------------------------------------------------------------------------
Iditarod Trail.......................  approx. 75.............  11.....................  approx. 64
Lewis & Clark Trail..................  approx. 270............  123....................  approx. 147
Mormon Pioneer Trail.................  88.....................  6......................  82
Nez Perce Trail......................  80.....................  40.....................  40
Oregon Trail.........................  217....................  14.....................  203
                                      --------------------------------------------------------------------------
      TOTAL..........................  730....................  194....................  536
----------------------------------------------------------------------------------------------------------------

    The figures given are the most accurate available; however they are 
approximate for all of these trails. Improvements in mapping techniques 
and historic research are increasing understanding of the full nature 
of these trails and the resources upon which they are based.
    S. 169 provides ``Willing Seller'' land acquisition authority to 
Federal agencies for all of these nine trails.

    Senator Akaka. Thank you very much for your testimony.
    Now James Brown.

 STATEMENT OF JAMES P. BROWN, WASHINGTON OFFICE DIRECTOR, ST. 
                           LOUIS, MO

    Mr. Brown. Mr. Chairman, thank you. On behalf of St. Louis 
Mayor, Francis Slay, I'd like to thank you again for this 
opportunity to testify in support of H.R. 1047, a bill 
authorizing the Secretary of the Interior to conduct a study to 
determine the feasibility of designating the St. Louis 
Soldiers' Memorial Military Museum as a unit of the National 
Park Service.
    I'd like to also thank Senator Claire McCaskill and 
Congressman William Clay for sponsoring this legislation.
    The Soldiers' Memorial was built as a tribute to all 
veterans residing in the greater St. Louis area, including 
southern Illinois. It has become a place of great solace for 
those veterans seeking peace and contact with their past and a 
great source of inspiration and pride for those families whose 
sons and daughters made the ultimate sacrifice for this 
country.
    With American troops now serving in Iraq and Afghanistan, 
landmarks that honor their service and the brave sacrifices 
made by our veterans that came before them are extremely 
important to the American people.
    The St. Louis Soldiers' Memorial has a unique place in our 
Nation's history. It is a national treasure created by the 20th 
century foremost Art Deco Master, Walter Hancock. The 
architectural masterpiece was dedicated by Franklin Roosevelt, 
October 14, 1936 and is the only structure in St. Louis, that 
we know of, that was dedicated by a sitting President. 
Therefore we do take exception to the characterization that the 
memorial is not distinguished beyond many other city memorials.
    Originally built to honor the veterans of World War I, the 
St. Louis Soldiers' Memorial occupies a seven acre site in 
downtown St. Louis. It houses an extensive collection of 
priceless military artifacts that date back to the early 
1800's.
    Today the memorial has become a cultural resource and 
gathering place. Every year it attracts nearly 48,000 visitors. 
It provides the setting for more than 20 ceremonies, including 
national patriotic events hosted by veterans groups, change of 
command ceremonies and military retirement ceremonies.
    This monument is also the center of the Annual Veteran's 
Day Parade in observation, which is the largest of its kind in 
the Midwest, drawing more than 100 marching units from many 
surrounding States.
    It is truly a beautiful structure that it certainly among 
the most cherished monuments ever built in tribute to our 
Nation's veterans. Every effort should be made to help ensure 
this valuable landmark is preserved for the benefit of future 
generations.
    Federal designation as a monument, under the administration 
of the National Park Service would guarantee the highest 
standards of historic preservation. We believe that a 
feasibility study of the St. Louis Soldiers' Memorial 
undertaken by the Interior Department will show that it is a 
historic structure with national significance and should become 
a part of the National Park Service. Thank you.
    [The prepared statement of Mr. Brown follows:]
   Prepared Statement of James P. Brown, Washington Office Director, 
                             St. Louis, MO
                        in support of h.r. 1047
    Mr. Chairman and Members of the Subcommittee, thank you for giving 
me this opportunity to testify in support of HR. 1047, a bill 
authorizing the Secretary of the Interior to conduct a study to 
determine the suitability and feasibility of designating the Soldiers' 
Memorial Military Museum located in St. Louis, as a unit of the 
National Park Service. My name is James P. Brown and I am here 
representing the City of St. Louis. I would like to take this 
opportunity on behalf of St. Louis Mayor Francis Slay to thank both 
Senator Claire McCaskill and Representative William Lacy Clay for 
sponsoring this very important piece of legislation.
    The Soldiers Memorial was built as a tribute to all veterans 
residing in the greater St. Louis area, including Southern Illinois. It 
has become a place of great solace for those veterans seeking peace and 
contact with their past, and a great source of inspiration and pride 
for those families whose sons and daughters made the ultimate sacrifice 
for their country. With. American troops fighting in Iraq and 
Afghanistan, landmarks that honor their service and the brave 
sacrifices made by veterans that came before them, are extremely 
important to the American people.
    The St. Louis Soldiers' Memorial has a unique place in our nation's 
history. It is a national treasure created by one of the 20th Century's 
foremost Art Deco master, Walter Hancock. The architectural masterpiece 
was dedicated by President Franklin D. Roosevelt on October 14, 1936, 
and is the only structure in St. Louis that is known to have been 
dedicated by a sitting U.S. President. Nobel features include the 
massive stone columns with carved stone panels between the columns that 
bear the faces of war veterans. On the north and south sides of the 
building are large stone statues of winged horses and martial looking 
men and women, representing the most important virtues in a soldier's 
life--COURAGE, LOYALTY, SACRIFICE AND VISION.
    Originally built to honor the veterans of World War I, the St. 
Louis Soldier's Memorial occupies a seven-acre site in downtown St. 
Louis. It houses an extensive collection of priceless military 
artifacts that date back to the early 1800's. Today, the memorial has 
become a cultural resource and gathering place. Every year, it attracts 
nearly 48,000 visitors and provides the setting for more than 20 
ceremonies, including national patriotic events hosted by veterans 
groups, change of command ceremonies, and military retirement 
ceremonies. This monument is also the center of the annual Veterans Day 
parade and observance which is the largest of its kind in the Midwest, 
drawing more than 100 marching units from surrounding states.
    The Soldiers' Memorial Military Museum is owned and maintained by 
the City of St. Louis. In 1923 the City of St. Louis voted $6 million 
to purchase a Memorial Plaza and building dedicated to St. Louisans who 
lost their lives in World War I. The purchase of the seven-block site 
exhausted the allotted funding leaving no money to erect a monument. In 
1933, Mayor Bernard F. Dickmann appealed to citizens and the city 
government to raise $1 million for the construction of a memorial 
building and for general improvements of the Plaza area with assistance 
from the Relief Recovery Act. Construction of the Memorial began on 
October 21, 1935. On October 14, 1936, President Franklin D. Roosevelt 
officially dedicated the site. Mayor Dickmann opened the building to 
the public on Memorial Day, 1938.
    It is a truly beautiful structure that is certainly among the most 
cherished monuments ever built in tribute to our nation's veterans. 
Every effort should be made to help ensure that this valuable landmark 
is preserved for the benefit of future generations. Federal designation 
as a monument under the administration of the National Park Service 
would guarantee the highest standards of historic preservation for all 
collections and unique architectural features. We believe that a 
feasibility study of the St. Louis Soldiers' Memorial undertaken by the 
Interior Department will show that it is a historically significant 
structure with national significance and it should become a part of the 
National Park Service.
    Thank you for your consideration.

    Senator Akaka. Thank you very much for your testimonies. 
And now we have a few questions for you.
    Mayor Kerner, you said that you believe placing the Fleming 
Plantation within the management authority of the National Park 
Service will be the best way to preserve the site. Can you tell 
us what kind of condition the site is in and is there any 
estimate of how much it will cost to acquire and preserve this 
site?
    Mr. Kerner. Senator, I don't have the estimates on the 
cost, I'm sorry. I think Senator Landrieu may have that, but I 
will tell you that there's a house on the Plantation that's in 
fairly good shape, but the blacksmith's shop is in bad shape. 
Also a couple cottages are in bad shape.
    I couldn't tell you a dollar amount for what it would take 
to restore them, but I will tell you that, in my area, right on 
Bayou Barataria, we're surrounded by swamp. It's a beautiful 
area. We have people from all over the world that come there 
and I think that this Plantation would just add to it, Senator. 
It would be a beautiful point of interest for Louisiana.
    Senator Akaka. Thank you. General Reddel, you've testified 
that your commission needs to be able to hire Federal employees 
to protect against liability issues. Most other groups 
authorized to build a memorial have not had this authority. Is 
there a difference between your commission and other memorial 
groups that would justify this authority?
    General Reddel. I can't speak to the differences in 
explicit terms with regard to other commissions as much as to 
say that we've looked carefully at the liability risk for the 
people that we have now on contract with us, and it's a serious 
issue for us to have this coverage.
    We've looked for a way to do it, the most cost-effective 
and efficient way we could identify and looked at the cost of 
private insurance.
    We also find that the law with regard to the District of 
Columbia and the statute of repose would require us to have 
such insurance for our employees up to a period of 10 years 
after the completion of the construction of the memorial.
    So, our resolution of this from our viewpoint in 
consultation with legal counsel was to do what we've proposed 
in the legislation.
    Senator Akaka. And the legislation of S. 890, it states 
that a commission can hire employees with regard to the civil 
service laws and title V of the U.S. code.
    My question to you is why do you need to be exempted from 
those laws?
    General Reddel. We wish to be exempted from those laws so 
that we can hire people on a temporary basis to meet the 
specific needs of the expertise for the design and the 
construction of the memorial and to make that as carefully 
defined for those purposes as we can.
    Senator Akaka. Thank you, General. Ms. Burdick, do you have 
an idea of how much of the trail will run on public lands or 
rights-of-way and how much crosses private lands?
    Ms. Burdick. Very little. I'd like to turn that question 
over to Mike Fitzgerald who actually walked the trail.
    Mr. Fitzgerald. I'd going to have to say 90 percent of what 
we walked was public.
    Senator Akaka. Mike, will you come up to a mic, so we could 
have it recorded? Thank you.
    Mr. Fitzgerald. Thank you, sir. I can't say exactly. I 
don't have those exact numbers, but 90 percent, a majority of 
the roads we walked on were public roads. Some of the camps are 
on private land, some of those aren't identified down in 
Virginia, but as far as the roads go, I think, they were pretty 
much all public.
    Senator Akaka. I see. Do you have any comment on that 
request by the Dobbs Ferry Historical Society to modify the 
trail map to ensure that Dobbs Ferry is recognized?
    Mr. Fitzgerald. I don't think I'm probably in the position 
to do that. I do know some of the history.
    Senator Akaka. Will you state your name?
    Mr. Fitzgerald. I'm sorry, Mike Fitzgerald with W3R.
    Senator Akaka. Thank you very much, Mike. Will the other 
gentleman please step forward to the mic, and state your name 
and your response?
    Ms. Burdick. Excuse me, Senator; may I put Dave Holloway, 
who also walked, to answer the question about Dobbs Ferry?
    Senator Akaka. Yes.
    Ms. Burdick. Thank you.
    Senator Akaka. Thank you.
    Mr. Holloway. My name's Dave Holloway. I'm from 
Connecticut. I also marched the trail.
    It was my idea to begin with, but going through the trail, 
we learned a lot of history about the trail, and it turns out 
that Dobbs Ferry was actually Phillipsburg during the 
Revolution and the Dobbs family owned the ferry that crossed 
the Hudson. What it was, is, Washington would cross the Hudson 
on Dobbs ferry, so when he would meet somebody he would say, we 
would meet at Dobbs Ferry.
    So, Phillipsburg's name was changed to Dobbs Ferry and to 
coin a phrase, ``Washington slept here.'' So being from Hawaii, 
you don't have too much of that, but it's very understandable, 
because when we did the march we slept in 54 different places 
in 4 months and so, Dobbs Ferry was one of the places where 
Washington would meet, but the army actually wasn't there. We 
crossed at King's Ferry, which is just north of Dobbs Ferry.
    Senator Akaka. Well, thank you very much for that 
information, appreciate it. Ms. Burdick, do you have any other 
further comments?
    Ms. Burdick. No, but we cordially invite the people from 
Dobbs Ferry to attend all of our meetings and we're all 
volunteers, so we need her.
    Senator Akaka. Thank you very much. Linda, Ms. Borkow, 
other than the omission of Dobbs Ferry from the trail map and 
the Park Service Study, do you have any other concerns with the 
proposed trail?
    Ms. Borkow. No, we're very enthusiastic that we have this 
legislation. It will help a lot of communities, but just to 
continue with the remark that was made here, this document that 
we submitted, the 14 page document, which is included in the 
packet that we have submitted today, gives a very detailed list 
of actual events which did occur in the current village of 
Dobbs Ferry.
    It's true, George Washington used this as a place name for 
his entire encampment, which included Dobbs Ferry and several 
of the neighboring villages, and that encampment is also 
referred to as Phillipsburg. But for instance, the gentleman 
here, who walked with W3R, they happened to have taken the 
route of the French, but the Americans actually went through 
Dobbs Ferry.
    We have a primary source, which is also cited in our study: 
Dr. Thatcher, who was with Colonel Scammel's unit and that 
unit, was an elite unit which is actually in the current 
village of Dobbs Ferry.
    We in Dobbs Ferry, because W3R was not doing something 
specific for our village, we organized our own march and 
actually Colonel Johnson of W3R came over and joined us for our 
march.
    But, what we need to have happen is this very detailed 
document that we have submitted in the comment period. We 
really need a historic and factual response to that, and some 
desire to really review it and incorporate these issues into 
the resource study that was done.
    If this becomes the final resource, the final study without 
our changes, anybody reading this would, sort of, not have any 
understanding of the very significant role that Dobbs Ferry 
played.
    In addition, the map that came with the legislation, that 
very small map, which I have on page four of my packet, doesn't 
mention Dobbs Ferry. It's kind of confusing, but Dobbs Ferry 
should be on this as the starting point of Washington's march.
    Basically, the responses we got from the National Park 
Service indicated that they feel this is sort of a minor matter 
that can wait until after the legislation. It can be addressed 
in some sort of form as things evolve and they did not give the 
impression that this very detailed document that we wrote with 
all sorts of historical substantiation, and also included four 
pages of specific corrections that we wanted to see to the 
resource study.
    We have this feeling that they don't intend to address it. 
So, we need that addressed and responded to.
    Ms. Burdick. I would like to say that the responses came 
after this document was sent to the printer, so thank you.
    Senator Akaka. Well, thank you very much, and thank you for 
those comments. Gary Werner, Mr. Werner, just out of curiosity, 
why was the land acquisition originally prohibited for these 
nine trails when, as you pointed out, it has been routinely 
authorized for all other trails?
    Mr. Werner. Mr. Chairman, I'm not sure I can give you a 
definitive answer because I have, over the years, have heard 
several different interpretations, but they basically stem to 
actions that were--as you know, the Trails Act has been amended 
a number of different times since 1968, and there was a package 
of amendments I believe in the early 1980's in which this 
particular amendment was added, which put this restriction on 
these nine trails which already existed, or had already been 
authorized.
    I know several people and in fact, Steve Elkinton from the 
National Park Service, who was their program leader for the 
National Trails System, has done some research on this.
    Going back and looking through the congressional records 
and the hearing records, there are a couple of different 
theories as to exactly how the amendment arose that made this 
prohibition, but it stemmed from the early 1980's and I think, 
frankly, was a concern coming from some of the western Senators 
about, what we still have today, the amount of public land or 
Federal land in the West. That's what the basis is, I think, 
for this amendment.
    I'd happily yield to Mr. Elkinton if he'd care to--no, he 
doesn't.
    I'm sorry. I wish I could give you a very simple, 
definitive answer, but I can't.
    Senator Akaka. Thank you very much, Mr. Werner. Mr. Brown.
    Mr. Brown. Yes, sir.
    Senator Akaka. The Soldiers' Memorial has been a city-run 
memorial for the past 70 years.
    Mr. Brown. Yes, sir.
    Senator Akaka. Why does the city now want transfer to the 
Federal Government?
    Mr. Brown. Senator, basically, we feel that the structure 
is used, right now, by, as we said--groups come from eight or 
ten States during Veteran's Day. It's used by many other groups 
from surrounding States. It is a facility that has tremendous 
historical experience.
    I understand, one of the points was made, about it being 
eligible but hasn't been formally nominated. I understand 
that's underway now, efforts are being made to do that.
    Also, we feel that structures of this national 
significance, that are used so frequently for these purposes 
should be under the umbrella of the National Park Service in 
terms of, not only just making the facility better and 
maintaining it, because some of these artifacts are very old 
and so on, but that as the National Expansion Memorial, the 
Gateway Arch, this facility is visited by many, many non-St. 
Louisans, people from many, many other States, and it's not 
just that we're having difficulty from a budget standpoint to 
properly maintain it.
    We feel that it has such national significance that it 
should be under the umbrella of these other national monuments 
so it can be properly recognized and properly maintained.
    Senator Akaka. Assuming this study came back favorable, 
would the city propose to donate the site to the Federal 
Government?
    Mr. Brown. I think that could definitely be a possibility. 
Yes, sir.
    Senator Akaka. Do you have any estimates as to what the 
maintenance and annual operating costs are?
    Mr. Brown. Right now they're between $180,000 to $250,000 a 
year.
    Senator Akaka. I want to thank you for your responses and 
let me call now on Senator Thomas for his questions.
    Mr. Brown. Thank you, Senator.
    Senator Thomas. Thank you, Mr. Chairman. Just very briefly, 
Mr. Kerner, you mentioned this extension would be good for the 
State and local area. Does that fit into the needs as a 
National Park?
    Mr. Kerner. Well, it would be 5,000 acres, Senator, and 
that would be 5,000 acres of prime wetlands where they have so 
much wildlife and it would be preserving the wildlife, 
preserving the beauty of these wetlands. They could never be 
developed.
    Some of this property is developable, but by putting in a 
National Park, it would never be developed.
    So many benefits, it acts as a buffer zone for 250,000 
people on the West Jefferson port of the river.
    Senator Thomas. It's private land now?
    Mr. Kerner. Private lands, yes, sir.
    Senator Thomas. I see. So then you'd have a total of about 
27,000 acres, this kind of thing. Is that right?
    Mr. Kerner. That's right.
    Senator Thomas. Okay. Mr. Brown, I was going to ask a 
similar question that the chairman has already asked. So the 
Government would pay the entire operating and maintenance 
expense under your proposition. Is that correct?
    Mr. Brown. Yes, Senator.
    Senator Thomas. Do you charge an entrance fee now for the 
museum?
    Mr. Brown. Yes, it's minimal. I believe it's under $5, I 
believe.
    Senator Thomas. What does it generate, do you know?
    Mr. Brown. I believe it generates less than about, I think 
it's $25,000 a year.
    Senator Thomas. Okay. You know, I understand. We just have 
to kind of make a decision sometimes, what things are national 
and what things should be State, what things should be local, 
and I understand that they're good things and if you can get 
the feds to pay for it, why that's a good idea. That's why we 
ask these questions.
    Mr. Brown. Certainly, certainly, Senator.
    Senator Thomas. Ms. Burdick, how much of the construction 
will be necessary along the route to restore the points of 
interest and build a visitor's center and so on?
    Ms. Burdick. Actually, one of the things that we're doing 
is partnering with many different historic preservation groups. 
We're just starting the very initial phases of a communications 
commons where members can talk with others to learn about 
places that are threatened by development, places that need a 
new roof and so on and so forth, but there are many different 
partnering organizations that we're reaching out to that can 
help with these things.
    At the moment, Yorktown National Park Service is a 
reasonable place for the Visitor's Center because it already 
exists.
    Senator Thomas. Okay. Mr. Werner, are you aware of any 
private funds available to purchase land to add to the trail 
systems?
    Mr. Werner. Yes, Senator Thomas. There are a number of land 
trusts, non-profit organizations that are working along for 
specific sites or specific areas along some of the scenic and 
historic trails.
    Several of the national, such land trusts, the trusts for 
public land, and the conservation fund have been doing work to 
help protect specific sites along some of the scenic and 
historic trails.
    In Wisconsin, where I'm from, besides local government and 
donations from private individuals, there have been a number of 
local foundations, or regional foundations that have provided 
funding assistance, usually on a matching basis where if 
there's some government money available, that money will be 
matched with the private money, so you're leveraging both 
public and private money to afford the necessary protection or 
acquisition.
    Senator Thomas. The private money could be used then. Is 
that right?
    Mr. Werner. Absolutely, yes.
    Senator Thomas. Mr. Reddel, this is going to be basically 
under GSA, this program. Is that right?
    General Reddel. We're anticipating the design and the 
construction to be under GSA, yes, sir.
    Senator Thomas. The Commission brought authority for 
raising money and entering contracts and support from GSA. How 
does that compare to other memorials? Have they done the same 
thing?
    General Reddel. Yes, sir, the other memorials have used the 
advice and the resources of GSA, and we see ourselves in what 
we're proposing is similar to other commissions in terms of our 
structure to arrive at that end.
    Senator Thomas. I thought I read somewhere here where GSA 
just didn't appear here. Why is that? They declined to appear. 
Do you know why?
    General Reddel. No, I do not.
    Senator Thomas. Okay, all right, well, we'll have to check 
that out. Yes. Come up and identify yourself.
    Ms. Wilson. I'm from GSA. Actually it's a little bit 
misleading, of what this bill is attempting to do. It is to 
give the Eisenhower Commission the authority to do their work. 
GSA just provides administrative support in this bill to the 
Commission. We help do their accounting and their personnel 
work, things like that, not actually planning the memorial.
    The Commission will continue to plan the memorial. GSA 
wasn't declining to testify today, but it's basically the 
Commission's hearing, their structures. They are deciding how 
the memorial will be established, what will be there, and GSA 
is just providing administrative support for them.
    Senator Thomas. Who provides the money for GSA?
    Ms. Wilson. They pay us on a reimbursable cost basis for 
our work.
    Senator Thomas. I see, thank you. Would you give us your 
name, please, and social security number?
    [Laughter.]
    Ms. Wilson. I'm Leslie Wilson, and I'm in the General 
Counsels Office at GSA.
    Senator Thomas. Thank you. Thank you, Mr. Chairman. I 
appreciate the testimony.
    Senator Akaka. Thank you very much, Senator Thomas. I'm 
glad you asked a question about GSA. That was in my mind too, 
and now we have a response.
    Before we conclude this hearing I'd like to again, thank 
our panels and our witnesses and those who added to it, for 
your responses.
    Your comments help put a personal face on these bills and 
are very helpful to the subcommittee. As I have said before, 
I'm looking forward to try to move these bills as quickly as we 
can.
    Some Senators, who were unable to be here this afternoon 
may submit questions in writing which we'll ask you to answer 
for the record if it is sent for your questions.
    So, with that I want to say thank you again to all of you, 
and the subcommittee hearing is adjourned.
    [Whereupon, at 3:54 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Linda Borkow to Questions From Senator Thomas
    Question 1. Washington-Rochambeau Revolutionary Route (S. 686): 
Have you submitted your comments to the National Park Service and are 
you satisfied with the response they have provided?
    Answer. Thank you for your questions, Senator Thomas.
    The Dobbs Ferry Historical Society submitted a 14-page comment to 
the National Park Service on December 2, 2006, during the public 
comment period.
    Our comment was provided to the Subcommittee on April 26, 2007 
(pages 8 through 21 of the handout).
    We have not received a response to the historical evidence and 
documentation found in our 14-page comment. The only response provided 
was confirmation that the comment was received by the NPS.
    We are not satisfied with their response thus far: we hope that the 
NPS will respond to the historical content in our 14-page comment.
    A stated objective of the NPS Washington-Rochambeau Revolutionary 
Route Resource Study is ``to identify the full range of resources and 
historic themes associated with this route'' (page 2). Because we 
present abundant evidence that Dobbs Ferry is a key site along the 
Washington-Rochambeau Route, our comment is relevant to this NPS 
objective.
    The NPS Resource Study also states that the NPS ``will carefully 
review all comments and determine whether any changes should be made to 
the report'' (page 2). This statement suggests that the NPS is prepared 
to make changes in the Resource Study in response to comments which are 
relevant and well-substantiated.
    Question 2. Are the concerns expressed by the Dobb's Ferry 
Historical Society the result of an oversight during the NPS study of 
the Washington-Rochambeau Revolutionary Route or a scholarly difference 
in the interpretation of the history of the Revolutionary War and the 
march to Yorktown? Please explain.
    Answer. We do not know why Dobbs Ferry was omitted from the NPS map 
which accompanies this legislation. As was mentioned in our testimony 
on April 26, 2007, we would welcome any feedback, including any 
disagreement or challenge that is based on historical evidence. To 
date, no one has challenged the historical accuracy of our 14-page 
comment.
    For that reason it seems unlikely that the concerns of the Dobbs 
Ferry Historical Society are the result of a scholarly difference of 
interpretation of the march to Yorktown or of the history of the 
Revolutionary War, and it seems more likely to be the result of an 
oversight.
    Similarly, we do not know why the Resource Study associated with 
this legislation fails to mention:

          a. that Dobbs Ferry was the starting point, on Sunday, Aug 
        19, 1781, of Washington's march from New York to Yorktown, 
        Virginia;
          b. that Dobbs Ferry and neighboring localities, such as 
        Ardsley and Edgemont/Greenville, were part of the 1781 summer 
        encampment of the allied American and French armies where the 
        winning strategy for the Revolutionary War was adopted;
          c. that elite military units were deployed in Dobbs Ferry 
        during the 45 days of the encampment (Col Alexander Scammel's 
        First Infantry, described by a respected primary source as ``a 
        select corps, consisting of the most active and soldierly young 
        men and officers . . . intended to march in advance of the main 
        army, constantly prepared for active and hazardous 
        service,''\1\ and Col Elisha Sheldon's Dragoons, the first 
        cavalry of the United States);
---------------------------------------------------------------------------
    \1\ Military Journal of the American Revolution by Dr. James 
Thacher.
---------------------------------------------------------------------------
          d. that a large redoubt, overlooking the Hudson River, was 
        constructed at Dobbs Ferry by American troops.
          e. that Dobbs Ferry received cannon fire from British ships 
        on the Hudson River on at least three occasions during the 
        summer encampment of 1781, and fire was returned by the troops 
        in the redoubt, causing considerable damage on one occasion to 
        the HMS Savage, a British ship-of war; the damage to the HMS 
        Savage allowed American prisoners of war on board to escape.
          f. and that General Washington placed the name, ``Dobbs 
        Ferry'' or ``Dobbs's Ferry'' or ``near Dobbs Ferry'' at the top 
        of approximately 100 letters which he sent from the encampment, 
        indicating that these were his preferred names for the location 
        of the encampment.

    There is one reference to Dobbs Ferry in the text of the Resource 
Study: On page 17, mention is made of a Hudson River ferry crossing at 
Dobbs Ferry of 600 officers and men ``ahead of the main armies,'' and 
this is of definite interest, but no mention is made at all of 
occurrences a through f, all of which are more important historically 
than that ferry crossing ahead of the main armies.
    Dobbs Ferry appears in very small font on one map in the Resource 
Study (page 47), along with hundreds of other localities.
    It is difficult to draw any conclusions about the historical 
significance of Dobbs Ferry from the map on page 47.
    While we are calling for important changes, compatible with the 
historical evidence, in the NPS Resource Study and on the NPS map 
accompanying this legislation, we wish to reiterate our strong support 
for S. 686 and to express our appreciation to the NPS study team for 
their hard work in behalf of a wonderful concept, the Washington-
Rochambeau National Historic Trail.
    We also wish to comment on the statements which Kim Burdick 
submitted in response to Senator Thomas's questions, and which are now 
part of the public record. We received Ms. Burdick's statements because 
she circulated them by e-mail.
    Ms. Burdick states in her answer to Senator Thomas that Dobbs 
Ferry's purpose is to get ``a piece of the . . . money pie and any 
future federal funding that might come along,'' and that, ``Mrs. 
Borkow's main comment to us was `if Dobbs Ferry is not a big dot on the 
map, we won't get any funding.' ``
    Ms. Burdick has misconstrued my comments, and I do not believe that 
these are words that I used. My actual response was that it would be 
damaging to all of our efforts if we acquiesce in the publication of an 
incorrect NPS Resource Survey.
    In ongoing volunteer efforts for more than a year and a half, 
members of the Dobbs Ferry Historical Society have been attempting to 
raise the level of public awareness about the great historical events 
which transpired at the 1781 summer encampment of the American and 
French armies in Dobbs Ferry and in neighboring localities.
    We consider that awareness of the great historical events which 
occurred in our communities is the heritage of all Americans and of 
posterity. Because it is our mission to educate the public about these 
significant events, we hope to establish permanent historical displays.
    If the National Park Service presents interpretations of history 
which omit the role played by Dobbs Ferry, our potential backers would 
be deterred and confused as to the true historic events because of the 
great credibility of the National Park Service.
    All of our efforts to develop accurate historical exhibits would be 
undermined if the National Park Service were to publish a historical 
account with such major omissions.
                                 ______
                                 
       Responses of Kim Burdick to Questions From Senator Thomas
    Question 1. Washington Rochambeau Revolutionary Route (S. 686): How 
do you envision the interpretation of the route (that is, would 
visitors have to drive from point to point or will there be a central 
visitor center)?
    Answer. Thank you, Senator Thomas. As the former staffer of the 
Delaware House of Representatives' Natural Resource Committee, I 
appreciate your very thoughtful questions. Please feel free to keep 
asking me questions until you get all the information you need.
    There are two parts to your first question:
Technology & Publications
    W3R-USA, as a 5-1 c-3, is currently working with Talisman 
Interactive in Manayunk, Philadelphia, PA on a comprehensive plan to 
develop a variety of tools for assisting visitors along the route. Our 
idea is to have a website, cell-phone & pod-cast sound trail, 
brochures, guidebooks, and interactive kiosks along the route.
    The first element will be touch-screen kiosks in key locations 
along the route. The pilot project kiosk was funded by the Delaware 
General Assembly and was installed on 4th of July, 2006 at the 
Wilmington Amtrak Station. We are hopeful that the other nine states 
and DC will fund additional kiosks along their portion of this route. 
We like the idea of putting these kiosks in places where there is heavy 
public visibility, such as Amtrak Stations and state and local visitors 
centers, and of course, in national parks. The pilot project kiosk 
contents are available on-line at www.w3r-de.org.
    The W3R-Delaware kiosk has some additional bells & whistles in that 
it has Yahoo map service and can print out a basic essay about the 
route in both French & English. (See image No. 1 at end of this 
document.) These kiosks cost about $25,000 each. Delaware tourism is 
very interested in these kiosks as a mechanism for capturing the zip 
codes of anyone who wants to send himself or a friend an ``e-
postcard''. This zip-code data collection gives us some way to track 
the geographic spread of our visitors.
    W3R-USA has long-term plans to develop Sound Trails using cell 
phone technology and additional pod-casts to interpret the historic 
sites along the way. These sound trails will enable the visitor to 
learn about the march of the allied soldiers without requiring the 
sites to be open to the public.
    Currently W3R-USA is working on a series of pod-casts that tell the 
Washington-Rochambeau story. These utilize existing film footage that 
Talisman has made at our events. Each one costs about $8,500, including 
travel time for the film crew. Our first pod-cast is David McCullough 
talking about the importance of the French soldiers and French citizens 
of the thirteen colonies. Hopefully this one will be available on-line 
next week, The others in our initial pod-cast series are Bob Selig, the 
chief historian for this project; the Marchers who walked all along the 
W3R from Rhode Island to Yorktown; and French Ambassador to the United 
States, Jean-David Levitte, telling the story from his French 
perspective.
    Each of seven of the nine W3R states has also privately contracted 
with scholar Robert Selig, PhD, to do extensive research into their 
state and local archives. Most of Bob's reports are on-line and can be 
found at www.w3r-us.org To date he has completed RI, CT, NY, NJ, PA, DE 
and funding for the Virginia study was announced at Yorktown Days this 
past fall. Maryland and Massachusetts, and DC, remain to be studied and 
we are hopeful that these W3R chapters will actively search for state 
and local funding to complete these volumes. In most cases, the State's 
General Assembly gave the money to the State Historic Preservation 
office that oversaw and vetted the research.
    We are very anxious to get these comprehensive ``Selig Studies'' 
done and published as a nine volume commemorative set. The research has 
already been used in a variety of ways, from creating local brochures 
and interpretive panels, to adding content to the W3R-DE interpretive 
kiosk.
    Now that most of the states have completed their ``Selig Study'' 
our organization is looking into producing a comprehensive brochure 
with a map of the entire route, and also a tourists' guide similar in 
nature to a Fodors. This type of publication and a related marketing 
outreach would be an excellent first project for NPS to work on with 
W3R-USA, as the research is already done, and the impact would be 
immediate.
Interpretive Centers
    My personal belief is that it is most economical, practical, and 
useful thing to leverage existing resources. There are a number of 
National Park Service sites on, or close to, this proposed 
Revolutionary Route, that could fairly inexpensively be outfitted with 
exhibit panels, brochures, pod-casts and interactive kiosks to help 
tell the story of the 1780-1782 march of the allied troops. I am 
especially interested in utilizing these existing National Parks and 
their interpretive centers as much as possible. They are ideally 
situated for spreading the W3R story as they already cater to a niche 
market attracted to the American Revolution.
    Colonial National Park in Yorktown is already a major player in 
this effort and, to my mind, makes the most sense as a focal point 
interpretive center. The march of the allied troops under Washington & 
Rochambeau culminated in the surrender of Cornwallis at Yorktown. 
Colonial National Park is visited annually in the month of October by 
American, French and often, British, government officials and hordes of 
tourists celebrating Yorktown Day. Our story is their story.
    Independence Visitor Center in Philadelphia is also already a key 
partner, and has a great temporary W3R exhibit that was installed in 
summer 2006 that will remain there until fall, 2007 then move to Valley 
Forge. Philadelphia is almost in the middle of the 685 mile W3R route 
and anyone following the route will pass through this historic 
district.
    Although not every one of the nine states has a National Park with 
a Revolutionary War theme, five of the nine states do: Massachusetts, 
New York, New Jersey, Pennsylvania and Virginia. New York State has 
West Point, Maryland has Annapolis, and DC has the Center of Military 
History at Fort McNair and the Library of Congress, all willing 
potential partners.
    The National Parks & state government-related sites that might be 
most conveniently be pressed into service are: Massachusetts: Boston 
National Historical Park, Minute Man National Park; New York: Stony 
Point, West Point; New Jersey: Morristown National Park (and also 
Monmouth & Princeton State Parks); Pennsylvania: Independence & Valley 
Forge; Maryland: Annapolis (& wrong war--but--perfect location-Fort 
McHenry National Park), DC-Library of Congress's Center of Maps & 
Geography and Smithsonian Museum of American History Virginia, Colonial 
National Park and also George Washington's Birthplace. (Colonial 
Williamsburg and Mount Vernon have also partnered with W3R-USA on 
several projects.)
    The historic sites along the Washington-Rochambeau Revolutionary 
Routeare mostly privately, locally, and state-owned, and should not be 
expecting NPS to fund their preservation or their restoration. The W3R-
USA, our non-profit, has established amazing ties with the city, state, 
and county parks and officials in the nine states and they are 
extremely interested in pumping up the visibility of their Rev War 
sites through partnering with local, county, state and federal parks 
along this 685 mile route. In every state tourism officials are 
interested and both willing and eager to help move this project to a 
higher level.
    The W3R is a good story that needs to be told, and it is largely an 
auto-route. For those who wish to walk the route, it is mostly just a 
road through towns and cities with sidewalks already existing in many 
places, plus some occasional hiking trails. By coincidence, or 
serendipity, the W3R also weaves in and out of existing greenways in 
nine of the fifteen East Coast Greenway states. At some point in the 
future, it is possible that at some transportation hubs, informational 
and interpretative panels for both projects could be established.
    An additional thought which may be causing needless concern to 
Congress: One of our board members, Betty Jane Gerber of McLean, 
Virginia, came to us in 2004 with a proposal for a central visitors' 
center in Washington, D.C. While we agree that it would be a nice idea 
to do that, her plan is not a top priority of W3R-USA. The Washington, 
DC heritage center has it's own non-profit status and W3R sees that 
effort as BJ's own baby.
    The following websites may be useful in visualizing the potential 
of using existing NPS sites as partners: http://www.nps.gov/colo/, 
http://www.nps.gov/revwar/revolutionary_parks/pop.htm, http://
www.cr.nps.gov/museum/exhibits/revwar/index1.html, and http://
www.nps.govirevwar/.
    Question 2. Washington-Rochambeau Revolutionary Route (S. 686): How 
much construction will be necessary along the route to restore points 
of interest, erect interpretive material, or build visitor facilities?
    Answer. I don't see this route as a major construction project. It 
is rather, a massive marketing effort. The greatest expense should be 
in developing a comprehensive marketing plan, printing costs, 
advertising costs, and interpretive signs and films.
    The Marchers will be able to pinpoint the places in the road where 
it is most dangerous for pedestrians; Most of those issues should be 
pinpointed and brought not to NPS to fix, but to the state legislators 
and state and county highway departments for remediation.
    There are some encampment sites that it would be nice to preserve 
but, as many are already parking lots and strip malls, for the most 
part an interpretive panel or state historic marker suffices.
    The historic houses and sites along the way are already somebody 
else's baby. Most of them are either privately-owned or run by non-
profits, or local, county and state governments. While all of these 
sites would like to stick their hands out for money, I personally would 
tell the managers of these sites (and have told the ones in Delaware) 
that W3R is merely a Route, an Auto-Tour, and that NPS's role is merely 
to enhance existing efforts through effective marketing techniques.
    It never hurts to have some public restrooms along the way, but 
simply marking on a route map where public restrooms and local, county, 
state and national park restrooms and campsites are already to be 
found, would be a good deed that would involve a simple survey, and 
entail less eventual federal government responsibility.
    Many of the W3R-USA states have already begun marking the trail 
with highway route markers & wayside exhibit panels using state and 
local funding. The states and counties that have participated to date 
seem to like doing this and see it as a good heritage tourism tool.
    We are using a comprehensive and carefully thought-out graphic 
design template. In several states the Department of Transportation has 
taken our template and cranked out and installed the highway route 
markers. Delaware has 37 of these highway route markers and the cost 
estimate I heard was only $2,000 from soup to nuts.
    Question 3. Washington-Rochambeau Revolutionary Route (S. 686): How 
much do you estimate the annual expense will be to manage and interpret 
the Washington Rochambeau Revolutionary Route?
    Answer. The appropriations requested by are $350,000. Divided by 9 
states and DC, that is pretty cheap. Although I haven't seen the NPS 
budget breakdown, I do know that this project will require at least one 
staff person serving as a full-time circuit rider, and three would 
really be better. Postage, long-distance phone bills, gas, and mileage, 
motel rooms, and office supplies will need to be covered. Very 
professional marketing & interpreting of this route will be essential.
    I don't know how NPS plans to handle the funding, but if I were in 
charge of that end of things, I would set up a good portion of this 
money as a pool of capped, re-grant, funds that each statewide chapter 
of W3R or an official nonprofit along the route, could request through 
an orderly grant application process. Most of the states already have 
state and local support that could serve as matching funds towards 
leveraging such a grant pool.
    Here are some real-world numbers based on W3R-DE's actual costs for 
our W3R Revolutionary Weekend held in September, 2006.

  <bullet> Touch screen kiosk.--$25,000.
  <bullet> Basic (very basic) web design.--$4,500.
  <bullet> One 1/8 page color ad in Amtrak.--$2,500.
  <bullet> Interpretive wayside single-panel sign.--$15,000.
  <bullet> Each free-standing wooden exhibition kiosk, also.--$15,000-
        $35,000.
  <bullet> State's Selig Study.--$25,000.
  <bullet> Tour guide booklets.--the estimate we got for a 9-volume set 
        was about $10,000 per state for a 40 page booklet with 8 pages 
        of color plates. The printing estimate was about $6.25 per 
        booklet.
  <bullet> Brochures.--Depends on amount produced. We had a small grant 
        of $2,500 and asked for ``as many color brochures as we could 
        get for $2,500.'' They cost about $1.00 to $2.50 each, 
        producing them in this small quantity.

    Question 4. Washington Rochambeau Revolutionary Route (S. 686): Are 
the concerns expressed by the Dobb's Ferry Historical Society the 
result of an oversight during the NPS study of the Washington-
Rochambeau Revolutionary Route or a scholarly difference in the 
interpretation of the history of the Revolutionary. War and the march 
to Yorktown? Please explain.
    Answer. Actually, Dobbs Ferry was not omitted by NPS. The Park 
Service, in fact, did include Dobbs Ferry in the final study report. 
W3R-USA feels it was adequately covered. Although Dobbs Ferry is an 
important and interesting part of the American soldiers' story, W3R's 
main thrust is the French and American story that begins far north of 
Dobbs Ferry, in Newport, Rhode Island.
    Question 5. Washington-Rochambeau Revolutionary Route (S. 686): Do 
you concur with the comments submitted by Dobb's Ferry Historical 
Society? Do you object to modifying the map referenced in the bill to 
reflect concerns expressed by the Dobb's Ferry Historical Society?
    Answer. W3R-USA agrees that Dobbs Ferry is an important piece of 
the W3R story. Dobbs Ferry is already on the final study map and is 
also mentioned in the text of the NPS final study. W3R has no objection 
to modifying the map. We welcome the members of the Dobbs Ferry 
Historical Society to become active participants in our all-volunteer 
organization. As this study is not about the history of Dobbs Ferry, 
and is about 685 miles of allied cooperation, we feel that the NPS 
study is very well-done and perfectly adequate for what it is.
                                 ______
                                 
       Responses of Gary Werner to Questions From Senator Thomas
    Question 1a. National Trails System Willing Sellers (S. 169): S. 
169 would give the National Park Service authority to acquire land from 
willing sellers on nine trails. Does the BLM already have authority to 
purchase land or obtain easements for any of the nine trails or would 
S. 169 also apply to BLM?
    Answer. Actually S. 169 gives authority to the Federal Government, 
that is, all Federal agencies, not just the National Park Service, to 
acquire land from willing sellers on nine national scenic and historic 
trails. This is the same authority that Congress has provided to 
Federal agencies for 10 national historic trails authorized since 1983, 
including the Captain John Smith Chesapeake National Historic Trail 
authorized in 2006.
    Question 1b. Does the BLM already have authority to purchase land 
or obtain easements for any of the nine trails or would S. 169 also 
apply to BLM?
    Answer. Wyoming BLM staff have told us that the Federal Land 
Management Policy Act allows them to purchase trail land or obtain 
easements from willing private landowners when Federal funds are 
available.
    We have been told that a Senate fiscal year 2008 funding request 
has been proposed that allows the purchase of trail easements from the 
Wyoming checkerboard private landowners. A similar funding request was 
proposed during the 109th Congress.
    Senate bill 169 does apply to the BLM, as well as all other Federal 
agencies.
    Question 2. National Trails System Willing Sellers (S. 169): Are 
you aware of any private funds available for purchasing land to add to 
the National Trails System and how much of those funds do you foresee 
using if S. 169 is enacted?
    Answer. Yes. National organizations, including The Conservation 
Fund, Trust for Public Land, and The Nature Conservancy have helped 
acquire land with private funding for the Appalachian, Florida, and 
Pacific Crest National Scenic Trails and for the Lewis & Clark and 
Trail of Tears National Historic Trails. Local land trusts in Wisconsin 
have helped to acquire land for the Ice Age National Scenic Trail with 
private and local government funds. The Florida Trail Association has 
secured private donations to help protect several sections of the 
Florida National Scenic Trail.
    When a private landowner decides to sell land or a trail easement 
as a Willing Seller, then the funds to pay for that acquisition must be 
obtained by a Federal, State, or local agency, non-profit organization 
or by trail volunteers or a combination of these entities. This is done 
on a case by case basis and private funding is generally raised for 
each specific project rather than for a ``Trail Acquisition Fund.''
    Here are two examples of acquisitions in which the Oregon-
California Trails Association (OCTA) secured private funding to help 
protect critical sites along the Oregon National Historic Trail:

  <bullet> Example A.--A private landowner offered OCTA an easement 
        covering the historic California Hill segment in Nebraska and a 
        private donor gave OCTA the funds to purchase that easement. 
        The cattleman's son then acquired the land and found that OCTA 
        had the only water source on his property. OCTA then rewrote 
        the easement to give him access to the water, installed a 
        cattle barrier gate for hikers and created a new access rule: 
        ``When the bull is standing in the trail ruts, wait until he 
        decides where he wants to go before hiking on the trail.'' OCTA 
        signed a public access agreement with the National Park Service 
        which under the National Trails System Act protects both the 
        landowner and the trail easement holder from hiker liability. 
        With the donor's approval, OCTA later donated this easement to 
        the Nebraska State Historical Society who now administers it.
  <bullet> Example B.--A private landowner in the historic City of 
        Rocks area of Idaho offered to sell land to the National Park 
        Service but wanted more than the ``fair market'' appraised 
        value. OCTA volunteers donated the funds needed to make up the 
        difference and the National Park Service acquired this land.

    Several states also have provided significant funding to acquire 
land from willing sellers for national trails. The State of Wisconsin 
and several counties have spent more than $13 million in purchasing 
land for the Ice Age National Scenic Trail over the past 15 years. More 
than 50 willing sellers have sold their parcels of land, ranging in 
size from 5 acres to 1,200 acres, for the Ice Age National Scenic 
Trail. Negotiations are underway with more than three dozen additional 
willing sellers. Ten fee title acquisitions, from 40 acres to 339 acres 
in size, have been completed by the State of Wisconsin to protect 
segments of the North Country National Scenic Trail over the past four 
years. The State also has acquired two easements for the North Country 
Trail.
    Similarly, the State of Florida and its communities are strong 
supporters of the Florida National Scenic Trail (FNST). The Florida 
Legislature has recognized the Florida National Scenic Trail in statute 
as Florida's official statewide non-motorized trail and agencies have 
been encouraged to acquire lands which will further the completion of 
the FNST. Using this authority the Florida Office of Greenways and 
Trails (OGT) has acquired several parcels providing 25 miles for the 
FNST and is in the process of acquiring several more parcels to provide 
another dozen miles of Trail. Several Florida State Conservation Areas 
have been acquired that include sections of the FNST and several other 
acquisitions, along the Suwanee River and other areas, now underway 
will also provide land for the Florida National Scenic Trail.
    If S. 169 is enacted into law the organizations working with 
Federal agencies to sustain the nine national scenic and historic 
trails in the legislation would continue to secure private funding and 
local government funding, as well as funding from Congress, to acquire 
critical sites and segments of the trails from willing sellers. The 
percentage of funds to acquire any one parcel coming from each of these 
public and private sources will likely vary from transaction to 
transaction. Acquisition of land or easements from willing sellers is 
necessarily a case by case activity that must meet the needs of the 
landowners as well as the buyers and funders to be successful.
    Question 3a. National Trails System Willing Sellers (S. 169): What 
is the role of property owners with land adjacent to willing sellers in 
the acquisition of property in accordance with S. 169? What recourse 
does an adjacent property owner have if they object to sharing a 
boundary with the trail as a result of the transaction and what 
liability does the property owner incur if trail users stray onto their 
property?
    Answer. Willing Sellers are Private Landowners who decide to sell 
their land or a trail easement across it to the Federal, State, local 
government, or a nonprofit organization. Adjoining landowners have the 
same rights that they would if this land was sold for a highway or sold 
or leased to an energy developer, another rancher, or any other 
purchaser.
    Question 3b. What recourse does an adjacent property owner have if 
they object to sharing a boundary with the trail as a result of the 
transaction and what liability does the property owner incur if trail 
users stray onto their property?
    Answer. We understand that liability for injuries incurred by 
people visiting or using other people's land is regulated by the 
states. We further understand that many states have revised or adopted 
``Recreational Liability'' statutes designed to minimize the liability 
for landowners who are not in the business of providing recreation 
opportunities and who allow others to use their land at no or minimal 
cost for recreational purposes. One of the intentions of these statutes 
is to encourage private landowners to open their lands for recreation 
by the public.
    Wisconsin's Recreational Liability statute, for example, applies 
both for people who are expressly invited to come on the land by the 
landowner and for people who use the land without the landowner's 
permission. In neither case is the landowner required to keep the land 
``safe'' for potential users (that is, fence off ``attractive 
nuisances'' such as farm equipment, swimming pools, cliffs, etc.). 
Rather the statute holds a landowner liable for injury to others only 
when it can be proven that the landowner maliciously intended to harm 
either an invited guest or a trespasser. Several cases under this 
statute that have been decided by the Wisconsin Supreme Court have all 
upheld the protection for the landowner, whether the landowner was a 
private individual or a public agency.
    In addition to the liability protection for landowners provided by 
State Recreational Liability statutes, the National Trails System Act 
provides Federal protection for landowners who cooperate in helping to 
preserve components of the National Trails System or allow the public 
to cross their land on one of the national trails. Section 7(h)(1) of 
the National Trails System Act, quoted in part below, extends the 
Volunteers-in-Parks and Volunteers-in-Forests benefits to cooperating 
landowners.

          Section 7(h)(1) The Secretary charged with the administration 
        of a national recreation, national scenic, or national historic 
        trail . . . may enter written cooperative agreements with the 
        States or their political subdivisions, landowners, private 
        organizations, or individuals to operate, develop, and maintain 
        any portion of such a trail either within or outside a 
        federally administered area. Such agreements may include 
        provisions for limited financial assistance to encourage 
        participation in the acquisition, protection, operation, 
        development, or maintenance of such trails, provisions 
        providing volunteer in the park or volunteer in the forest 
        status (in accordance with the Volunteers in the Parks Act of 
        1969 and the Volunteers in the Forests Act of 1972) to 
        individuals, private organizations, or landowners participating 
        in such activities, or provisions of both types. The 
        appropriate Secretary shall also initiate consultations with 
        affected States and their political subdivisions to encourage--

                  (A) the development and implementation by such 
                entities of appropriate measures to protect private 
                landowners from trespass resulting from trail use and 
                from unreasonable personal liability and property 
                damage caused by trail use, and
                  (B) the development and implementation by such 
                entities of provisions for land practices compatible 
                with the purposes of this Act, for property within or 
                adjacent to trail rights-of-way. After consulting with 
                States and their political subdivisions under the 
                preceding sentence, the Secretary may provide 
                assistance to such entities under appropriate 
                cooperative agreements in the manner provided by this 
                subsection.

    Question 4a. National Historic Trails Extension Studies (S-580): Do 
you foresee any new trails being added to the National Trails System as 
a result of the studies authorized in S-580?
    Answer. No. S-580 is almost identical in wording to its predecessor 
bill signed out by this Subcommittee and unanimously approved by the 
full Senate during the 109th Congress.
    Question 4b. Do you foresee the expansion of existing trails as a 
result of the studies authorized in S-580?
    Answer. Bill S-580 authorizes the study of additional routes/
cutoffs recommended for future study by the 1999 Four Trails 
Comprehensive Management Plan. As specified in the written testimony to 
this Subcommittee, these studies will determine which of these routes 
meet the qualifications of the National Trails Act and should be added 
to already authorized trails. Then new enabling legislation will have 
to be approved by a future Congress before any of these routes can be 
added to the four National Historic Trails.
    Question 4c. Do you foresee changes in the interpretation of the 
history of these four trails as a result of the studies authorized by 
S-580?
    Answer. The National Trails Act does not authorize the Federal land 
management agencies for these four trails to change their 
interpretation of these four trails as a result of the passage of S-
580.

  <bullet> Example 1.--The end of the Applegate Route of the California 
        National Historic Trail is in Salem, Oregon near the State 
        House. Recognition of this route as also being the southern 
        route of the Oregon National Historic Trail can not be done 
        until: This study's authorization legislation is passed by 
        Congress; the study of this route justifies its addition; and 
        new enabling legislation is passed by a future Congress. 
        Meanwhile, outside the Oregon legislature, a California 
        National Historic Trail logo will remain on the end of the 
        trail marker and an Oregon National Historic Trail logo can not 
        be added.
  <bullet> Example 2.--The National Trails Center being built in Elko, 
        Nevada will interpret the Congressionally authorized California 
        and Pony Express National Historic Trails. The Southern route 
        of the Oregon National Historic Trail, which parallels the 
        California Trail in Nevada, will not be interpreted until after 
        its study is authorized by S-580 and a future Congress 
        authorizes its addition to the Oregon National Historic Trail.

    The answers to these questions have been prepared by Gary Werner, 
Executive Director of the Partnership for the National Trails System, 
Bill and Jeanne Watson, Federal Trails Co-Liaisons, Oregon-California 
Trails Association, and Kent Wimmer and Howard Pardue of the Florida 
Trail Association. Mr. Werner lives in Madison, WI; the Watsons live in 
Orinda, CA; Mr. Wimmer and Mr. Pardue live in Tallahassee, FL.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

       Statement of Carl Taylor, Chairman, Coconino County Board 
                             of Supervisors
      s.722, the walnut canyon national monument study act of 2007
    Chairman Akaka and members of the Senate National Parks 
Subcommittee, as Chairman of the Coconino County Board of Supervisors, 
I appreciate the opportunity to submit testimony on S. 722, the Walnut 
Canyon National Monument Study Act of 2007. Coconino County would like 
to extend our gratitude to the Committee, as well as Senators McCain 
and Kyl, for their continued effort to move the Walnut Canyon National 
Monument Study Act forward.
    On behalf of Coconino County and the Flagstaff Community, I would 
like to relay our strong support for the Walnut Canyon National 
Monument Study Act. S. 722 will assist with continued planning efforts 
in Coconino County and the area surrounding the Walnut Canyon National 
Monument. We cannot overstate the importance to the Flagstaff community 
of proper planning in the area of this unique monument.
    S. 722, the Walnut Canyon National Monument Study Act, authorizes 
the Secretary of the Interior and the Secretary of Agriculture to 
jointly conduct a study of certain land adjacent to the Walnut Canyon 
National Monument to evaluate the significance of the public uses and 
resource values of land and to make a recommendation for the future 
management of the area. The land referred to as the Study Area in the 
legislation is comprised of approximately 31,000 acres and includes 
Federal land, Arizona State Trust land, private land (which will not be 
affected) and land within the Walnut Canyon National Monument, managed 
by the National Park Service. All other non-private land within the 
study area is managed by the United States Forest Service or the 
Arizona State Land Department.
    The Study Area surrounding the Walnut Canyon National Monument 
contains important natural habitats, abundant and diverse flora and 
fauna, and truly unique archeological, topographical, scenic and sacred 
grounds full of tradition and culture. The distribution, diversity and 
location of historic sites are unique and include the only cliff 
dwelling architecture of the Northern Sinagua Native American culture. 
Many contemporary tribes look at this area as the home of their 
ancestors. The natural and cultural resources within the Monument are 
known to be significant to these native tribes, as evidenced by oral 
history, continuing practices and the archeological record. In 
addition, land under management by the United States Forest Service 
enjoys many valued public uses.
    Due to widespread public interest and the diverse groups with 
vested interests in the land surrounding the Walnut Canyon National 
Monument, on February 12, 2002, Coconino County and the City of 
Flagstaff conducted a joint meeting to discuss this issue. A ``staff 
group'' was created and included staff from the National Park Service, 
the United States Forest Service, the Arizona Game and Fish Department, 
the City of Flagstaff and Coconino County.
    Three public input meetings were scheduled in 2002 to provide the 
public with agency introductions, resource information, known land 
uses, alternative land designations and options. Upon conclusion of the 
meetings there was a consensus that preservation within the Study Area 
was in the public interest and current uses in the area should be 
retained. However, an agreement was not reached on which agency is best 
to manage this property and what the final boundary should look like.
    Concurrently, a phone survey was conducted including residents of 
the incorporated area of Flagstaff, as well as unincorporated areas of 
Coconino County including Kachina, Mountainaire, Parks, Ft. Valley and 
Doney Park. The results were remarkably similar to those of the public 
input meetings with the vast majority of the participants supporting 
continued preservation and a continuation of current uses. In addition, 
hundreds of letters and calls from citizens were received for 
consideration.
    This public process, along with the team efforts of the staff 
group, resulted in a joint resolution by the Coconino County Board of 
Supervisors and the Flagstaff City Council on December 17, 2002. This 
resolution is a result of the public's desire obtained through an open 
process with citizen, federal, state and local participation to 
determine the best manner in which to protect these lands and resources 
in perpetuity, while allowing the continuation of current uses.
    The study authorized by S. 722 will evaluate the significance of 
the public values and resources of the Study Area as pertaining to the 
management objectives of the Forest Service and the National Park 
Service, opportunities for maintaining existing public uses and 
recommend a range of options for best managing and conserving the same.
    Ultimately, upon completion of the Study by an experienced third 
party consultant, it is envisioned recommendations will be made through 
collaboration between the Secretary of the Interior, the Secretary of 
Agriculture, the Forest Supervisor of the Coconino National Forest, the 
Superintendent of the Flagstaff Area National Monuments, the Flagstaff 
City Council and the Coconino County Board of Supervisors.
    Mr. Chairman and members of the Committee, on behalf of the 
Flagstaff Community and the citizens of Coconino County, thank you for 
your consideration of the Walnut Canyon National Monument Study Act of 
2007. We look forward to your support for this important legislation.
                                 ______
                                 
   Statement of Jason Begger, Vice President, Petroleum Association 
                               of Wyoming
    Mr. Chairman and members of the Subcommittee, my name is Jason 
Begger and I am the Vice President of the Petroleum Association of 
Wyoming (PAW), specializing in public land issues. PAW would like to 
thank the Subcommittee on National Parks of the Committee on Energy and 
Natural Resources for the opportunity to provide written comments 
regarding Senate 169, which pertains to different aspects of historic 
trail designations and willing sellers for certain trail segments in 
the National Trail System.
    PAW is Wyoming's oldest and largest trade organization, the members 
of which account for over ninety percent of the natural gas and over 
eighty percent of the crude oil produced in the State. PAW is 
recognized as Wyoming's leading authority on petroleum industry issues 
and is dedicated to the betterment of the state's oil and gas industry 
and public welfare.
    Last year, the oil and gas industry alone accounted for 
approximately 63% of the assessed valuation of property in Wyoming. The 
2000 Census reported that there are approximately 494,000 people living 
in Wyoming. Including tax receipts and royalty revenue, this translates 
into direct payment of nearly $4,800 for every Wyoming resident. The 
mineral industry (oil, gas and mined minerals) provides over 65% of the 
total education budget, and 70% of Wyoming's total annual budget. The 
petroleum industry directly employs nearly 20,000 people with a payroll 
of over $1 billion annually. If one concludes that there are three (3) 
indirect jobs for every direct job, the result is 63,000 indirect jobs. 
Combined, a total of 83,000 jobs are attributable to oil and gas 
development in the state and. Using this calculation, the petroleum 
industry directly and indirectly employ's 17% of the residents in the 
State.
    Wyoming is also the largest contributor to the federal onshore 
minerals program with a submission of over $1.2 billion in fiscal year 
2006 from rents, royalties, and bonus bids from oil and gas development 
activity on public lands. Fifty percent (50%) of that total is 
allocated back to the state. In Wyoming, as with many other western 
states, access to public lands is critical for the very survival of the 
state's economy, maintaining quality jobs, sustaining a reasonable tax 
base and providing a revenue stream for state and local governments.
    Wyoming also has the most miles of historic trails of any state in 
the West. There are five (5) congressionally designated trails in 
Wyoming. Those are the Nez Perce Trail, which runs through Yellowstone 
National Park, and the Oregon, California, Mormon Pioneer, and Pony 
Express Trails, which traverse east to west across central and southern 
Wyoming.
    The historical legacy, wide open spaces and recreational 
opportunities within Wyoming are very important to all the citizens of 
the state. The thousands of residents employed in the oil and gas 
industry enjoy these scenic and cultural resources; and support the 
preservation of these assets. PAW encourages efforts to enhance our 
historical legacy and supports the National Trails System Willing 
Seller Act (S. 169), subject to the following provisions:

  <bullet> The bill would allow the federal government to obtain 
        private property from willing sellers but would place 
        boundaries on the amount of land that may be purchased and 
        would prohibit the federal government from condemning private 
        property for the purpose of obtaining trail segments to manage 
        for public recreation.
  <bullet> The Act should be amended to require all acquisitions under 
        the Act to be subject to valid existing rights.
  <bullet> The management of congressionally designated trails and 
        trail segments has become more cumbersome over the years. The 
        surface management agencies have placed increasingly 
        restrictive measures in terms of disturbance of the actual 
        trails and protection of visual resources. This has only served 
        to create further barriers and restrictions for access to 
        public lands in Wyoming. PAW supports the protection of 
        historic trails as they are an important component of Wyoming's 
        history, and the history of the settlement of the West.

    Protection of the trails, however, should not result in unnecessary 
hardship on the landowner. To prevent this outcome, PAW believes the 
Act should be revised to include a requirement that management of these 
trail segments on private property should be restricted to ``a quarter 
mile on either side of the trail or visual horizon, which ever is 
less.'' This would be in keeping with the Act as currently drafted, 
which limits the amount of land that may be acquired to a quarter mile. 
In the absence of this revision, although only a quarter mile may be 
obtained, the federal government may seek to extend its regulatory 
reach far beyond the quarter mile. This should not be allowed. In 
addition, the sale of property or the management of the private lands 
must be subject to landowner approval but there must be a default 
position in place to prevent the unnecessary expansion of protection.
    Mr. Chairman and members of the Subcommittee, thank you again for 
the opportunity to share with you our perspective regarding historical 
trails in Wyoming.
                                 ______
                                 
 Statement of Celina Montorfano, Vice President for Programs, American 
                             Hiking Society
           s. 169--national trails system willing seller act
    Mr. Chairman and members of the subcommittee, American Hiking 
Society is the only national nonprofit organization that promotes and 
protects foot trails and the hiking experience. With a strong 
membership base of individual hikers and hiking clubs, American Hiking 
represents half a million outdoors people and serves as the voice of 
the American hiker. American Hiking Society, our members and member 
organizations, and the 75 million Americans who hike have a strong 
interest and stake in the future of our National Trails System, 
especially the national scenic trails included in S. 169, the National 
Trails System Willing Seller Act. American Hiking Society strongly 
supports S. 169 and urges the Subcommittee to recommend S. 169 for 
passage in the Senate.
    Willing seller land acquisition authority is critical to the 
completion and protection of our National Trails System. Between 1978 
and 1986, Congress designated nine national scenic and national 
historic trails while prohibiting their managers from acquiring land 
with federal funds to protect the trail corridors and historic trail 
sites. S. 169 amends the National Trails System Act to give the 
national scenic and historic trails that do not have federal land 
acquisition authority the ability to buy land from willing sellers. 
These trails are the Continental Divide, Ice Age, North Country and 
Potomac Heritage National Scenic Trails and Oregon, Mormon Pioneer, 
Lewis and Clark, Iditarod and Nez Perce National Historic Trails.
    Enacting this authority will help protect critical resources along 
these congressionally-designated trails. Without this authority, trail 
managers' hands are tied when development threatens important links in 
the natural landscapes or historic routes of the national trails. The 
legislation would not commit the federal government to purchase any 
land or to spend any money but would allow managers to purchase land to 
protect the national trails as opportunities arise and as Congress 
appropriates the necessary funds.
    Willing seller authority will provide the following benefits:
Will Help Complete Critical Portions of the National Trails System
    Willing seller land acquisition authority will enable federal 
agencies to play an essential role in protecting resources and rights-
of-way critical to the integrity and continuity of the affected trails. 
Congress' intent to provide opportunities for outdoor recreation and 
appreciation and enjoyment of natural and historic resources may never 
be fully achieved along these trails without the agencies' ability to 
purchase land from willing sellers.
    The four national scenic trails included in S. 169 have a combined 
projected length of approximately 9,300 miles. Twenty-five years after 
their authorization, only about 5,600 miles--slightly more than one-
half of their length--are protected so they will be permanently 
available for public use and enjoyment. The routes of the Ice Age, 
North Country and Potomac Heritage National Scenic Trails lie mostly 
across private land in eastern and midwestern states. The Continental 
Divide National Scenic Trail crosses mostly public land and is nearly 
complete. Willing seller authority will have little to no impact on the 
amount of land owned by the federal government in several western 
states.
    Without the ability to purchase permanent rights-of-way from 
willing sellers, it is highly unlikely that these trails will ever be 
the continuous pathways that Congress intended. In addition, willing 
seller authority can allow sections of these trails now located on 
roads to be moved to overland routes that will provide safer and better 
conditions for hikers and other trail users.
Restores Basic Property Rights
    S. 169 protects private property rights, as landowners along the 
affected trails are currently denied the right to sell land to the 
federal government if they desire to do so. Many landowners have 
offered to sell their land to the federal government to maintain the 
continuity of a national scenic trail. Individual families have 
voluntarily protected many unique and special sites along the trails 
for several generations. Granting willing seller authority will restore 
basic property rights to many landowners.
    The decision to sell land is made freely by the landowner. The bill 
only authorizes land acquisition from willing-sellers. The owner must 
want to sell his land, and he/she must want to sell it to the federal 
government. Under the willing-seller bill, no contract is valid unless 
the landowner receives compensation for the land, reflecting basic 
contract law. S. 169 would not affect the rights of landowners adjacent 
to the trails or within the trails' viewsheds.
Restores the Ability of Federal Agencies to Fully Administer the 
        National Trails
    S. 169 restore a critical tool to the federal agencies that 
administer the national trails. The National Trails System Act (NTSA) 
authorizes the administering agencies to collaborate with other federal 
agencies, state and local governments and private organizations in 
planning, developing and managing the trails; develop uniform standards 
for marking, interpreting and constructing the trails; regulate their 
use; and provide grants and technical assistance to cooperating 
agencies and organizations. The NTSA provides for these and other 
authorities to be applied consistently throughout the National Trails 
System; however, land acquisition authority--an essential means for 
protecting the resources and continuity that form the basis for these 
trails--has been applied inconsistently. This hinders effective 
administration of significant portions of the National Trails System.
    Willing seller land acquisition authority for the National Trails 
System is nothing new. Congress authorized two trails before 1978 and 
14 trails since 1983 with federal land acquisition authority, including 
the newest additions to the National Trails System--the Old Spanish 
National Historic Trail authorized in 2002 and Captain John Smith 
Chesapeake National Historic Trail authorized in 2006.
    S. 169 restores the ability of the federal agencies to carry out 
their responsibilities under the NTSA to protect nationally significant 
components of our nation's cultural, natural, and recreational 
heritage. One of the fundamental responsibilities given to the federal 
agencies is to protect the trails' important cultural and natural 
resources and to provide public access to and travel within them. 
Absence of willing-seller authority prevents the agencies from directly 
protecting resources along the affected trails.
Provides Reasonable Conservation Opportunities
    Willing seller land acquisition authority and subsequent 
appropriations from the Land and Water Conservation Fund (LWCF) will 
enable the federal agencies to respond to conservation opportunities 
presented by willing landowners. The need and opportunity to use this 
authority will arise at different times for different trails. For some, 
the authority may not be used for many years or only infrequently. For 
others the need for this authority is more acute and is likely to be 
used as soon as Congress makes it available.
    With willing seller authority, as provided by S. 169, federal 
agencies will only be able to buy land from willing sellers if Congress 
appropriates the funds for them to do so. Ultimate control over how 
much land may be purchased for the national scenic and historic trails 
remains with Congress through the annual appropriation process. 
Acquisitions will also be controlled by the limited funding available 
for acquisitions combined with the linear nature of these trails. 
However, if the administering agency can only protect a segment of 
trail corridor by acquiring a whole parcel larger than needed for the 
corridor, the NTSA allows agencies to exchange or dispose of land 
acquired as part of a whole tract that falls outside the area the area 
of trail acquisition.
Benefits of Trails
    Our National Trails System provides invaluable environmental, 
recreational, economic, health, and transportation benefits to the 
nation. These trails offer family oriented recreation in a safe 
environment. By increasing physical activity, trail use such as 
walking/hiking reduces the risk of life-threatening diseases such as 
heart disease, diabetes, cancer and other serious medical conditions. 
The national scenic and historic trails provide economic vitality to 
communities, increasing property values and enhancing regional tourism. 
They also offer significant educational value as outdoor classrooms for 
natural and cultural history. Without willing seller land acquisition 
authority for these trails, our nation will lose irreplaceable and 
invaluable resources and experiences.
                               conclusion
    American Hiking Society is very grateful to Senators Allard and 
Levin for introducing S. 169. Willing seller bills have received 
bipartisan support, are generally considered noncontroversial, and are 
critical to the protection and completion of the National Trails 
System. We urge the National Parks Subcommittee to recommend these 
bills for a Senate vote as soon as possible. American Hiking 
appreciates the opportunity to provide these comments in support of S. 
169 for the hearing record. Thank you for your consideration.
                                 ______
                                 
Statement of John Franklin McCabe, Chairman, The Marion Park Project, a 
           Committee of The Palmetto Conservation Foundation
    S. 312 and H.R. 497--The Brigadier General Francis Marion Monument 
Act of 2007: A bill to authorize The Marion Park Project and Committee 
of the Palmetto Conservation Foundation to establish a commemorative 
work on federal land in the District of Columbia and its environs to 
honor Brigadier General Francis Marion.
    Chairman Akaka and distinguished members of the Committee, thank 
you for inviting me here today to speak on behalf of S. 312, the 
Brigadier General Francis Marion Memorial Act of 2007. My name is John 
F. McCabe and I am the Chairman of the Marion Park Project, a Committee 
of the Palmetto Conservation Foundation in Columbia, South Carolina.
    As memorial sponsor, we are pleased to honor one of the great 
Heroes of the American Revolution, General Francis Marion. On June 28, 
1776, Carolina Day, the first major success of for the Revolutionary 
Forces drove the British Fleet under Sir Peter Parker from the city of 
Charles Town, South Carolina, at the Battle of Sullivan's Island, 
sending the Redcoats all the way back to New York, not to return for 
over three years. The unit responsible was The Second South Carolina 
Continentals under Gen. William Moultrie, including his able staff 
officer, Francis Marion.
    Convinced that South Carolina was mostly loyal to the Crown, the 
British returned to the South to prosecute their Southern Strategy. 
With the City of New York under British occupation, stalemating with 
George Washington's army following the Battle of Monmouth in 1779, the 
idea was to capture the Southern Colonies using British Regulars and 
local Loyalist Militias, starting with Savannah, Georgia, and working 
their way to Virginia, thus executing a giant pincer tactic on 
Washington's Army, resulting in crushing the Rebellion.
    First, Savannah fell, then Charleston under General Benjamin 
Lincoln losing 5,000 Continental troops, then Camden under General 
Horatio Gates dispersing Continentals and Militias to the swamps and 
wilderness of Backcountry South Carolina. Things were going well for 
the British's Southern Strategy.
    Francis Marion, known as ``The Swamp Fox,'' was born in Berkeley 
County, South Carolina, in 1732 to Huguenot parents. Even though he was 
a commissioned officer in The Continental Army, he was assigned to lead 
a local militia, or irregular fighters, in the back- and low-country 
swamps of South Carolina fighting British Troops under Lord Cornwallis. 
He is generally credited as the introducing his guerilla warfare hit 
and run tactics into the American Army, and is considered to be The 
Father of Special Forces.
    Following the liberation of Charleston in 1776, most Carolinians 
went back to their homes to farm in peace. When the winds of war 
returned to the South in 1779, the regiment was recalled and formed in 
Charleston to defend the city against an eventual British siege. Then 
Lt. Col Francis Marion with others led an unsuccessful attempt to drive 
the British from Savannah. After returning to Charleston, the Regiment 
began building the defenses of the City. In March of 1780, legend has 
it that a party for Continental Officers was being thrown on Tradd 
Street in Charleston. The revelers overindulged, prompting Col. Marion 
to jump from a second story window to escape. He broke his ankle in the 
fall and was evacuated from the City. Charleston then fell to the 
British two months later, with the 5,000 Continental troops captured. 
Meanwhile, the Continentals under General Horatio Gates, the hero of 
Saratoga, moved south to attack Cornwallis' army at Camden. In August 
of 1780, the Americans were soundly defeated, with the entire force 
killed, captured, or dispersed into the woods and swamps. That left 
only one Commissioned Continental Officer in the Southern Department 
free to command: Lt. Colonel Francis Marion.
    Marion's orders were to harass the supply lines of the British 
moving goods and weapons from Charleston and Georgetown to their 
outposts inland, especially Camden. This would buy time for General 
Nathanael Greene, Daniel Morgan and Light Horse Harry Lee to move south 
with their army and relieve Gates in the Carolinas. Two particular 
spots along the routes were the ferries at Santee and Black Rivers. 
Marion's band of rag-tag militia would strike quickly at these two 
``choke points'' and retreat into the swamps. Famed British Colonel 
Banastre Tarleton was sent to capture him, but was unsuccessful. After 
a skirmish at Ox Swamp at Jack's Creek, where Marion and his band had 
struck and vanished into the swamp, Col. Tarleton exclaimed, ``as to 
this damned old fox, the devil himself could not catch him.'' The name 
``Swamp Fox'' stuck.
    Promoted to Brigadier General in the South Carolina Militia, 
Francis Marion's legend spread quickly and his success inspired the 
populace. South Carolina in the Revolution was truly divided. Yet when 
the British attempted to crush the rebellion with an iron hand, hanging 
anyone suspected of being a rebel, burning their homes and salting 
their fields, as well as issuing an order that any former patriot on 
parole who does not take up arms against the remaining Americans will 
be hanged, many South Carolinians decided to fight with Marion and the 
other partisan generals in South Carolina. Marion was non-
discriminatory. His band consisted of whites and blacks, rich and poor, 
free and slave, as well as friendly Native Americans. He was considered 
fair and kind. Because of this, he led what is considered to be the 
first integrated fighting force in United States Army history. With all 
this support and loyalty belonging to the Americans, the British 
Southern Strategy, which had depended on Loyalists rallying to the 
Crown which never materialized, began to crumble. Defeats at King's 
Mountain, Cowpens, and the draw at Guilford Courthouse sent a weakened 
Lord Cornwallis to his Waterloo at Yorktown. Without that broken ankle 
sending Francis Marion to command the Williamsburg Militia, many 
historians feel that the British Plan would have succeeded.
    Although Marion was a commissioned officer in the Continental Army, 
he led a local militia. Living in the swamps and forests, subsisting on 
sweet potatoes and vinegar, performing his exploits, all the while 
fighting in his own backyard. He represents the citizen soldier, 
defending his home and his rights. He inspired the everyday citizen to 
bear arms against oppression, and in the process was instrumental in 
the survival of the Fledgling United States of America.
    In today's environment, our Armed Forces are all volunteer, the 
same as in Marion's day. The idea that an individual decision to join 
and defend, making a difference in the country's future, is as 
inspiring today as it was 226 years ago. 29 cities and 17 counties have 
been named for General Marion (second only to General Washington). A 
four year liberal arts state university, a National Forest, countless 
babies, one of two biographies by the famous Parson M.L. Weems (the 
other being General Washington which included the felled cherry tree 
incident), a William Cullen Bryant epic poem, a full length motion 
picture ``The Patriot'' starring and directed by Mel Gibson, a Disney 
series in 1959-60 starring Leslie Nielsen as The Swamp Fox and hosted 
by Walt Disney himself are all modern day evidence of the popularity of 
Marion. Militarily, as reported by United States Marine and journalist 
W. Thomas Smith, Jr., in his online column entitled Washington Monument 
for this Damned Old Fox, ``[h]e is in fact, the father of U.S. Army 
Special Forces . . . Marion is a member of the U.S. Army Ranger Hall of 
Fame. Both the U.S. Navy and Coast Guard have named ships after Marion, 
one of which was designed to land U.S. Marines. Even military pilots 
claim the lineage, including the ``swamp foxes'' of the Army's Vietnam-
era 199th Recon Airplane Company; the Navy's current 44th Helicopter 
Anti-Submarine Squadron (Light), based at Mayport Naval Station, 
Florida; and the famous 157th Fighter Squadron of the S.C. Air National 
Guard. Currently flying F-16 fighters, the 157th has fought in numerous 
conflicts and overseas expeditions--including Iraq during Gulf War I 
and over Afghanistan in the current global war on terror--where the 
jets are easily recognizable by the gray `swamp fox' emblazoned on the 
fuselage.''
    These are real and true tributes to a real American Hero, and we 
ask that National Recognition for General Marion be granted with a 
monument in Our Nation's Capital.
    On April 17th, 2007, I traveled to Washington, DC, to meet with 
several of the neighbors around Marion Park on Capitol Hill. Many were 
concerned about the process and their involvement in the installation 
of a memorial in Marion Park. The meeting went very well, was attended 
by 30 or so interested neighbors, National Park Service 
representatives, Congressional staffers and others.
    The process was outlined for everyone, including what S. 312 
actually does: it simply authorizes that General Marion warrants 
memorialization somewhere in the District of Columbia for his 
historical significance.
    After this bill is passed, a joint effort between the Marion Park 
Project, the local residents, the Advisory Neighborhood Commission, the 
National Park Service, as well as other governing agencies and bodies, 
will begin the process of site selection, design, fundraising and 
installation. We also look forward to helping in improvements to the 
park, but S. 312 does not address that issue. Our committee, however, 
looks forward to working to the improvements to the park as much as the 
memorial and have pledge full cooperation with all involved.
    As S. 312 states, no federal funds will be used for the erection of 
the memorial.
    Thank you again for your valuable time and consideration. Your 
service to our country and her citizens is greatly appreciated.
    Thanks go out as well to all of the Congressional and Committee 
Staffs who have worked so diligently in moving this legislation 
forward. Also, the National Park Service and the various Commissions 
charged with the process deserve our deepest gratitude. Thanks as well 
to the interested residents of Capitol Hill who have been so kind and 
generous in this endeavor.

                                    

      

</pre></body></html>
